                   Department of Veterans Affairs
                          Office of Inspector General




 Review of the Lease Awarded to Westar 

Development Company, LLC for the Butler, 

     Pennsylvania Health Care Center 





Report No. 13-02697-113                                       March 31, 2014

                            VA Office of Inspector General

                               Washington, DC 20420

To Report Suspected Wrongdoing in VA Programs and Operations:
 
                                
                  Telephone: 1‐800‐488‐8244
 
                                
                 E‐Mail: vaoighotline@va.gov
 
                                
        Website: www.va.gov/oig/contacts/hotline.asp
 
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                                          Contents 



Executive Summary................................................................................................. i


Introduction 


Purpose ..................................................................................................................... 1

Background............................................................................................................... 1 

Scope and Methodology ........................................................................................... 4 


Results and Conclusions......................................................................................... 5


I. 	     VA’s Change to a One-Step Process Created an Advantage for Westar........ 5 


II. 	    VA Diverted Key Decision and/or Analysis Responsibilities 

         to the Real Estate Broker ................................................................................ 9 


III. 	 The Butler HCC Lease was More Costly than VA Building and 

       Owning the Butler HCC ............................................................................... 11 


IV. 	 VA Wrongly Dismissed the Protest of Westar’s Award .............................. 13 


V. 	 Michael Forlani’s Companies Were Involved in the Butler HCC 

     Proposal Submitted by Westar...................................................................... 15 


VI. 	 VA Failed to Verify Westar’s Veteran-Owned Small Business Status ........ 20 


VII. 	 VA Took No Action to Verify Westar’s Past Performance 

       and Experience.............................................................................................. 22 


VIII. VA Took No Action to Verify Teaming Agreements of Westar ................. 24 


Conclusions............................................................................................................ 25


Recommendations................................................................................................. 26


Acronyms............................................................................................................... 27 





VA Office of Inspector General
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

Appendixes

A. OIG Management Advisory Memorandum Issued to VA on June 13, 2013 ... 28 


B. Ownership Structure of Westar and VA Butler Partners Company, LLC ........ 41 


C. Management Comments ................................................................................... 42 


D. OIG Response to Management Comments....................................................... 50 


E. OIG Contact and Staff Acknowledgements...................................................... 54 


F. Report Distribution ........................................................................................... 55 





VA Office of Inspector General
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                   Executive Summary 

Introduction

The Office of Inspector General, Office of Contract Review, initiated a review of the
Department of Veterans Affairs’ (VA) lease with Westar Development Company, LLC
(Westar), a limited liability company. The lease was a build-to-suit lease for the new
Butler Health Care Center in Butler, Pennsylvania (Butler HCC) to replace VA’s aging
health care facility in Butler. The lease was awarded on May 31, 2012, for a 20-year
period with a total value of $152.7 million. We initiated our review because of
allegations that Westar misrepresented itself as a veteran-owned small business (VOSB),
misrepresented its past experience, and that Michael Forlani and his companies were
involved with Westar and the Butler HCC project. Forlani and related companies were
suspended from Government contracting in December 2011 because of bribery and
racketeering charges in an indictment filed in November 2011. Forlani pled guilty to
these charges, in August 2012, and was sentenced to eight years in prison.

Results and Conclusions

Our review determined that Westar made false and misleading statements regarding: (1)
its veteran ownership status; (2) its past performance and experience; and (3) that it had
teaming arrangements with critical team members, in particular, the general contractor
(GC). These findings were reported in a Management Advisory Memorandum to the
Office of Acquisition, Logistics, and Construction (OALC) on June 13, 2013. As a result
of our review and the evidence submitted with the advisory memorandum, VA
terminated Westar’s lease for default on August 9, 2013. The lease was terminated
before building permits were obtained and actual construction started.

At the request of the Principal Executive Director, OALC, we continued our review to
determine what happened, why, and what could be done to prevent a similar scenario in
the future. We found that a change in the lease acquisition process for the Butler HCC
created a preference for Westar since Westar had a purchase contract for the land parcel
that was preferred by VA. This preference may have been a contributing factor for VA
not critically reviewing and verifying Westar’s proposal. We determined that VA did
not, nor did VA’s broker, take the steps required by the solicitation to verify Westar’s
veteran-owned status. As a result, Westar received additional points on its technical
score. We found that VA did not, nor did VA’s broker, conduct any steps to verify the
past experience claims by Westar. As a result, Westar received points on the technical
evaluation for experience that was not Westar’s. We found that VA did not, nor did
VA’s broker, conduct any steps to verify Westar’s teaming arrangements, especially with
the GC. As a result, Westar received points on the qualifications of a GC that we found
was not able or capable of building the Butler HCC.


VA Office of Inspector General                                                                            i
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

Our review also found that VA incorrectly dismissed a protest regarding the awarded
lease to Westar. We found that the Contracting Officer (CO) did not appear to have
reviewed the protest in earnest. We also determined that the Office of General Counsel
(OGC) opinion contained several errors. Records show that the CO had the knowledge
necessary to have identified at least one of the errors in OGC’s opinion. However, the
protest was determined by the CO to have no merit without any follow up or discussion
with the developer who filed the protest.

Our review of the lease file and other documentation indicated that key decisions or
analysis responsibilities were relegated to VA’s real estate broker who was under contract
to provide lease acquisition services for the Butler HCC. Documentation indicates that
VA officials did not verify certain aspects of Westar’s proposal, in particular, Westar’s
past performance, financial capabilities, and ownership status. The documentation shows
that VA officials relied on advice from its real estate broker on these issues. We
determined that VA made the award to Westar when in fact; neither VA nor its broker
took appropriate steps to verify the past performance and other pertinent assertions made
by Westar in its proposal.

We also determined that VA’s analysis, that showed that leasing was less costly and
financially advantageous to VA than VA constructing and owning its own building, was
in error on two accounts. First, the analysis was done for a term of only 15 years and not
20; second, the cost estimate for constructing the building used in the analysis was
artificially high. The estimated cost used in VA’s analysis was almost twice the final cost
estimate in the lease awarded to Westar.

Recommendations

We recommended to the Principal Executive Director, OALC, that VA adheres to the
normal two-step process unless certain pre-determined criteria are present to justify a
departure from the two-step process. We also recommended that steps be established to
ensure the CO is actively involved in decisions. We recommended that VA determine
the value of a real estate broker. If a broker is determined to be of value, we recommend
that VA define more specific tasks, responsibilities, and deliverables. We recommended
that VA ensures that critical information contained in vendor proposals is actively
verified such as veteran ownership status, who the owners are for all entities involved, the
past performance and experience, and that critical team members are committed and able
to do the project.




VA Office of Inspector General                                                                            ii
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

Management Comments

On March 7, 2014, the Department provided a response from the Principal Executive
Director, OALC. While the Department concurred with our recommendations, the
Department did not accept responsibility for any of the identified deficiencies and
disagreed with five of our findings and conclusions. VA Management’s assertions are:

         VA did not have a preference for the Deshon Woods site.
         VA’s decision to move to a one-step lease process was justified.
         The lease cost was fair and reasonable and consistent with OMB
          guidelines.
         The CO’s decision to dismiss the protest of the award to Westar was
          supported.
         VA conducted due diligence when vetting ownership of Westar and VA
          Butler Partners.

We reviewed VA Management’s comments and provided a response in Appendix D of
the report. In summary, we found that VA Management’s comments ignored the
evidence presented in our report and that their assertions listed above were not supported
by, and at times were inconsistent with, the uncontested facts. While it is undisputed that
Westar made false and misleading representations to VA, our findings and conclusions
supported that VA failed to perform appropriate, required verification steps and failed to
follow up on key statements made in Westar’s proposal.




                                                      MAUREEN T. REGAN
                                                  Counselor to the Inspector General




VA Office of Inspector General                                                                            iii
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                          Introduction 

Purpose

In response to allegations, the Office of Inspector General (OIG), Office of Contract
Review (OCR), conducted a review of the Department of Veterans Affairs’ (VA) lease
with Westar Development Company, LLC (Westar), a limited liability company (LLC).
Westar was awarded a build-to-suit lease for a new Health Care Center in Butler,
Pennsylvania (Butler HCC) in May 2012. In late March 2013, the OIG received an
anonymous complaint that Westar was financed and backed by Michael Forlani, a
northeast Ohio contractor and developer who pled guilty to bribery and racketeering
charges in 2012 and that the information submitted by Westar to VA was false. Mr.
Forlani was indicted in November 2011 and pled guilty to the charges. He and the
companies identified in the indictment were suspended from Government contracting in
December 2011. On April 1, 2013, Forlani was sentenced to eight years in prison. In
response to the allegations, the OIG OCR initiated a review of the lease awarded to
Westar. The initial purpose of the review was to determine whether the allegations had
merit. We substantiated the allegations and on June 13, 2013, issued a Management
Advisory Memorandum to the Office of Acquisition, Logistics, and Construction
(OALC) with supporting documentation. This document is included as Appendix A
(without Attachments). At the request of the Principal Executive Director, OALC, we
continued our review to determine what happened, why, and what could be done to
prevent similar problems in the future.

Background
On October 26, 2009, Congress passed Public Law 111-82 which authorized 15 major
medical facility leases including the Butler HCC. On January 21, 2010, VA advertised
for land for the Butler HCC. VA intended to conduct a two-step lease award process
where VA first would identify a suitable site and acquire an assignable purchase contract
for the land at no more than the appraised value. In the second step, VA would solicit
proposals from developers to design and build the Butler HCC on the site VA had
acquired through the assignable purchase contract. VA would then assign the land
purchase contract to the winning developer who would purchase the land and construct
the building. On May 4, 2010, VA conducted a market survey of the proposed sites with
the assistance of Public Properties, VA’s real estate broker, who was under contract to
provide lease acquisition assistance on the Butler HCC lease project. VA determined that
one site scored significantly higher. However, there were concerns that this site only met
the minimum acreage requirements, had potential wetland issues, and the land was owned
by the Butler Township. Because of these concerns, on June 17, 2010, VA advertised
that it would use a one-step acquisition (that is, VA would not acquire an assignable
purchase contract for the land and each developer would submit a parcel for
consideration). VA conducted a second market survey on July 20, 2010, and interested
parties submitted 11 parcels for consideration. VA granted a pass or fail grade for each


VA Office of Inspector General                                                                            1
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

parcel with a passing grade indicating that a developer could use the parcel in a proposal.
In this manner, VA approved 5 of the 11 sites to be used by developers submitting a
proposal for the Butler HCC build-to-suit lease.

On October 21, 2011, VA issued a Solicitation for Offers, VA-101-10-RP-105 (SFO), for
a build-to-suit lease for the new Butler HCC. Proposals were required to use one of the
five approved sites. It was up to the developer to negotiate a purchase contract or a long-
term lease for the site they were proposing. Westar submitted a proposal on January 10,
2012. Five other proposals were submitted in response to the SFO. Westar was the only
offeror that claimed veteran-owned status and received a bonus of four points on the
technical evaluation for its veteran-owned status. Westar’s site was the Butler Township
parcel commonly referred to as the Deshon Woods site. Westar received the highest
score on the technical evaluation and was deemed the best value. The lease was awarded
to Westar on May 31, 2012.

On June 1, 2012, a Special Agent (SA) with the Federal Bureau of Investigation (FBI)
contacted the VA Contracting Officer (CO) and informed him that the FBI was
conducting a criminal investigation of Robert J. Berryhill, Vice President of Westar. The
SA explained that Berryhill was aware of the criminal investigation and then requested
all proposals received from “Robert J. Berryhill, dba Westar Development Company” for
the years 2009 through 2012. This verbal request was followed up by a written request
from the FBI on June 4, 2012.

On June 19, 2012, a formal protest was filed with the CO by one of the unsuccessful
bidders. The basis of the protest was that Westar failed to disclose that one of its
principals, Robert J. Berryhill, had admitted to embezzling money from his prior
employer. The protest stated that Berryhill was involved in civil litigation with his prior
employer because of the embezzlement and that Berryhill was also under investigation by
the FBI. The unsuccessful bidder submitted various litigation documents supporting its
allegations including a summary judgment decision relating to certain aspects of the civil
litigation. That decision was based on Berryhill’s admission that he embezzled money
from his employer which the judge stated was an undisputed fact. The unsuccessful
bidder argued that Westar was required to disclose the embezzlement by Berryhill and
that such a disclosure would have resulted in VA determining that Westar was non-
responsible. Such a determination would have disqualified Westar as a responsible
bidder. Based on advice and guidance from VA’s Office of General Counsel (OGC), on
July 25, 2012, the CO issued a final decision dismissing the protest because it was
without merit. The CO stated that his decision was based on the fact that there was no
indictment or conviction of Berryhill nor was he debarred or suspended. The CO further
stated that any lack of integrity on the part of Berryhill could not conceivably be imputed
to Westar. Even though VA had dismissed the protest, on the same day, VA issued a
cure notice to Westar that expressed concerns that the legal proceedings against Berryhill
could endanger the Butler HCC project. Westar, through Berryhill and Samuel (Sam)


VA Office of Inspector General                                                                            2
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

Calabrese, the President of Westar, responded to the show cause letter on August 1, 2012.
In its response, Westar attempted to marginalize the civil litigation and stated that
Berryhill had fully cooperated with the FBI and that the Department of Justice had not
charged Berryhill with any crime. Westar asserted that Berryhill was not, and never was
an owner of Westar. Additionally, Berryhill was being demoted to Project Manager and
that the project, if necessary, would continue without Berryhill.

On August 13, 2012, VA sent Westar the notice to proceed. The kick off meeting was
held on August 22, 2012. On or about December 27, 2012, the Resident Engineer
learned that Westar was changing its general contractor (GC) from LDV, Inc., (LDV) to
Marous Brothers Construction (Marous). The Resident Engineer sent a letter to Westar
and requested experience and financial information regarding Marous. He stated that the
information should be sent to the CO and that the CO must approve any change in the
GC. Additional correspondence and discussions took place that ultimately resulted in
VA approving the change to Marous.

In late March 2013, the OIG received allegations that Westar was actually conducting
business for entities created and managed by Michael Forlani and that Westar had
provided false information to VA. Forlani and his related companies were suspended by
VA in December 2011 after Forlani was indicted in November 2011. In response to the
allegations, we commenced a review by first obtaining a copy of the Butler HCC contract
file and gathering other publicly available records.

On April 3, 2013, the Department of Justice filed a criminal information against Berryhill
that described five counts of Mail Fraud, two counts of Wire Fraud, one count of False
Impersonation of an Officer or Employee of the United States, and one count of
Aggravated Identity Theft. Mr. Berryhill pled guilty, on April 23, 2013, and was
sentenced, on July 30, 2013, to more than 6 years in prison.

On April 5, 2013, Westar and VA officials held the official groundbreaking ceremony at
the Butler HCC site. While site grading and preparation work was being done, final
permits and approvals had not been granted to start actual construction at this time.

On April 25, 2013, the OIG first met with VA officials to provide a briefing of concerns
and issues after the OIG’s initial review of the lease file and other public documents
concerning Berryhill and other principals of Westar. On June 13, 2013, the OIG issued
an advisory memorandum to VA that provided information that showed Westar made
false and misleading statements regarding its past performance, veteran-owned status,
and teaming arrangements. Based on the information contained in the advisory
memorandum, VA issued a Stop Work Order to Westar on June 21, 2013. When it
became clear that work was continuing, VA issued a second Stop Work Order to Westar
on July 16, 2013.




VA Office of Inspector General                                                                            3
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

On July 11, 2013, VA issued a Show Cause Notice to Westar stating that VA was
considering a termination for default. VA provided the reasons for considering a
termination for default and gave Westar an opportunity to respond. Westar responded to
the CO on July 17, 2013. VA issued a termination for default to Westar on August 9,
2013.

Scope and Methodology

We reviewed the official lease file and lease documents and obtained and reviewed
publicly available documents pertinent to our review. We also reviewed information
produced in response to subpoenas issued to various individuals and entities associated
with and related to Berryhill and Westar. We interviewed VA officials including the VA
CO, technical evaluation board (TEB) members, other pertinent officials, and the primary
individual at Public Properties. We also had discussions with Berryhill and Westar legal
representatives regarding the Butler HCC lease.

We also reviewed four other proposals submitted by Westar for other VA projects to
determine if the same issues existed on those proposals. Those proposals are identified in
Table 1.

                                              Table 1 

                                  Other Westar Proposals Reviewed 

                                       Project               Proposal Date
                            Jacksonville Clinic                04/22/2010
                            Colorado Springs Clinic            08/03/2011
                            Winston-Salem HCC                  12/03/2012
                            Monterey HCC                       01/22/2013




VA Office of Inspector General                                                                            4
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                   Results and Conclusions 

I.    VA’s Change to a One-Step Process Created an Advantage for Westar

VA planned to award the Butler HCC lease using the two-step approach. The first step
required choosing a site for the Butler HCC and acquiring an assignable purchase
contract for the land parcel. This would be done by soliciting land owners for potential
sites and applying objective criteria to score the sites and identify the site that best
fulfilled VA’s needs and requirements. The second step required choosing a developer to
build and operate the building on the site selected by VA. This would be done by
soliciting proposals from developers who would propose designs on the site where VA
had the assignable purchase contract. VA would award the lease to the developer with
the best overall value, which would result from a review of the technical evaluation and
price. VA would then assign the land contract to the winning developer who would
purchase the land and construct the building.

On January 21, 2010, VA issued an advertisement for a 25 to 30 acre site for the Butler
HCC. On April 2, 2010, VA revised the requirement to a 15 to 30 acre site for the Butler
HCC; six sites were submitted to VA for consideration. VA held a market survey on
May 4, 2010 and evaluated and scored the sites. The six sites were ranked as follows:

                                                  Table 2 

                                        Six Sites Ranked by Score 

                     Rank        Site                                          Score
                     1           Butler Township Parcel (Deshon Woods)          90.6
                     2           Site 2                                         51.4
                     3           Site 1                                         32.8
                     4           Site 3                                         32.2
                     5           Site 5                                         28.8
                     6           Site 4                                         27.8

Based on the survey and scoring shown in Table 2, the Butler Township Parcel (Deshon
Woods) was clearly the preferred site. This property is adjacent to the existing Butler VA
Medical Center (VAMC) and met the requirements after the reduction of required
minimum acreage from 25 to 15 acres. However, VA published notice on June 17, 2010,
that VA was switching to a one-step lease process where each developer provided its own
site as part of its proposal. Documentation shows that the main reason for the switch was
that the Deshon Woods site was owned by Butler Township. The Price Negotiation
Memorandum states that there were complications such as wetlands and, “other issues
related to VA’s procurement process. For example, the preferred site—Site 6, or the
Deshon Woods parcel—was put forth by the Township of Butler, who in turn did not
have the ability to directly convey the property to VA’s selected developer.” The Price
Negotiation Memorandum does state that there were other sites available and speculates


VA Office of Inspector General                                                                            5
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

the reason was that the owners did not want to sell at fair market value because of the real
estate market downturn. The project manager stated, in her monthly project updates, that
the preferred site had “various complications, including wetlands, encroachment of a
building that belongs to the Army Reserves, not a clear way for the Township of Butler
(who owns the site) to sell directly to VA’s developer, etc.” The project manager also
stated that the switch to a one-step will put the “site risks back on the Township to
handle.” The project manager further states, in her monthly updates, that “there is a lot of
political pressure to keep the HCC as close to the VAMC as possible. The site, even with
complications as described above, abuts the VAMC property, which is what made it so
desirable to the Director of the Butler VAMC.”

These statements and comments show that VA had a strong preference for the Deshon
Woods site and the fundamental reason for switching to the one-step process was that VA
apparently thought it could not get an assignable purchase contract on the Deshon Woods
site because the property was owned by Butler Township. While not specifically stated
in the lease file, it appears the “challenge” was related to the fact that Butler Township
could only sell real property under a bid or auction situation. The municipal code for
First Class Townships in Pennsylvania, in Article XV Section 1501, stipulates that the
sale of real estate shall be sold to the highest bidder in a public call for bids or a public
auction. Our review of the lease file did not find any evidence that VA ever had any
discussions regarding this issue or that VA requested an opinion from the OGC to
determine if VA could submit a bid to the township for the Deshon Woods site.

We discussed the issue with an OGC attorney and were told that VA would not have been
prohibited from submitting a bid to Butler Township and acquiring a purchase contract,
for the land, with an option to assign the purchase contract to the winning developer.
This is exactly what happened with Westar. Zenith Systems, LLC (Zenith) was the
highest bidder and eventually assigned the purchase contract to Westar, which in turn
assigned the purchase contract to VA Butler Partners, LLC. Records show that Zenith
paid $2.3 million for the property, which was about 31 percent higher than the only other
bid. The appraised value of the land was $880,000. This means VA could have
potentially realized a lower net lease cost had it stayed with the two-step process and paid
the lower appraised price for the land by acquiring an assignable interest directly.

VA could have submitted a bid to the township and acquired an assignable purchase
contract if they were the highest bidder. Most likely, VA would have been the only
bidder since the only two bidders for the one-step process were both developers
interested in the Butler HCC project. It would not have made sense for any developer
interested in the Butler HCC project to bid against VA because there would have been no
expectation that VA would have changed to a one-step process. Accordingly, any
developer who outbid VA for the Deshon Woods site could have been burdened with a
parcel of land that it could not use.



VA Office of Inspector General                                                                            6
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

When VA switched to the one-step approach and Westar won the sealed bid for the
Deshon Woods site, Westar gained an advantage over other developers who submitted a
proposal to VA. Westar had the parcel of land that VA had identified as the preferred
site. This site was scored significantly higher by VA prior to the competitive process and
records and interviews revealed that there was political pressure to use the Deshon
Woods site.

The fact that VA scored the property high even though it did not meet the minimum
acreage requirement of 15 acres is further evidence of a preference in VA for the
property; therefore, a preference for Westar’s proposal. Westar disclosed that the Army
Reserves had not encroached on the Deshon Woods property but rather had a long-term,
no-cost lease for the use of about two acres. This lease, which conveyed with the
property, is in effect until 2037. This reduced the useable acreage for the Deshon Woods
site to about 13.9 acres. At least two other sites were disqualified for being less than the
minimum requirement of 15 developable acres. In contrast, VA did not disqualify the
Deshon Woods site even though it was less than the minimum required 15 acres.

After VA switched to the one-step process, VA issued a second solicitation for land
parcels to evaluate potential sites. In this approach, VA would apply a pass or fail grade
to potential sites. VA then would stipulate that any proposal from potential developers
would have to use one of the pre-approved sites that received a passing grade. Eleven
sites were submitted for consideration and five sites received a passing grade, including
the Deshon Woods site. VA held a pre-bid conference on October 26, 2011, and
instructed all potential bidders that their proposals had to use one of the five pre-approved
sites. It was the developer’s responsibility to demonstrate that they had control of the
parcel (current title, option to purchase or lease, etc.). Westar was the only bidder able to
submit a proposal using the Deshon Woods site as they were the only bidder who had a
purchase contract on the Deshon Woods site. Although VA informed the potential
bidders that the “sites have all been accepted and they are all on a level playing field as
far as the solicitation is concerned,” a review of the technical evaluation scoring sheets
showed that it included a section titled “Quality of Site.” This section gave points
specific to the site offered in the proposal. Westar received the highest score (81 percent
of potential points) for Quality of Site. The lowest score was 28 percent of potential
points and the developer with the second highest total score received 54 percent of
potential points for Quality of Site. Because VA had already evaluated the sites and
determined that all five sites satisfied all requirements and received a passing grade, the
technical evaluation should not have included an element to evaluate the Quality of Site,
especially since potential bidders were informed that all five sites were on equal footing.
The fact that it was included and that Westar received the highest score shows that there
was a preference for the Deshon Woods site and that preference was built into the
technical evaluation by requiring the TEB members to “re-score” the sites.




VA Office of Inspector General                                                                            7
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

Based on this series of actions by VA, we concluded that VA had a preference for the
Deshon Woods site prior to issuing the solicitation. When VA went to a one-step
process, and Westar gained sole control of the Deshon Woods site, Westar gained an
unfair and undisclosed advantage over other offerors. This could have been avoided if
VA’s Office of Construction and Facilities Management (CFM) and the CO had sought
advice from OGC and submitted a bid for the property before changing to the one-step
process.

VA used the two-step process for the other HCC projects, two of which Westar submitted
proposals for (Monterey and Winston-Salem). Westar’s proposals for the Monterey HCC
and Winston-Salem HCC were very similar in form, content, and verbiage. However,
Westar did not have the same advantage of controlling the preferred site in either of those
proposals since VA had selected the site and obtained an assignable purchase contract for
Monterey and Winston-Salem. Although Westar was deemed responsible and responsive
to the solicitations and was in the top five for at least the Winston-Salem HCC, it did not
receive the award for either of those HCCs.




VA Office of Inspector General                                                                            8
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

II. VA Diverted Key Decision and/or Analysis Responsibilities to the Real
    Estate Broker

At the very outset of the Butler HCC lease project, VA issued a task order for Lease
Acquisition Services to Public Properties. The task order, valued at $1 million, identified
the Butler HCC and stated that the services to be rendered are outlined in the Contract.
The contract stipulated that the successful Offeror for the Butler HCC pays the broker
fee: 75 percent at the execution of the contract and the remaining 25 percent when VA
moves into the building.

The task order was issued against VA’s contract for National Broker Services, which is a
multiple award contract. This contract, V101-183-101-01-03, was awarded to Public
Properties and includes a Statement of Work (SOW) that is standard for all Broker
Contracts. The SOW serves as a guide and provides consistency in policies and
procedures for VA acquisition services nationwide. Lease Acquisition Services are
described in Section C.4.2 of the SOW. Although there are deliverables that the broker
was required to produce, such as a schedule, acquisition strategy, market survey, and
final lease documents; our review of this section of the SOW found that the services were
largely advisory and even deliverables such as the market survey include explanatory
language such as “consult” and “assist.” The word “assist” occurred more than 50 times
in Section C.4.2 alone. Yet, based on our interview with the CO and members of the
TEB, VA did not employ Public Properties to assist in the process, but relied on the
broker to verify Veteran-Owned Small Business (VOSB) status and provide both an
opinion on the financial status of developers and the validity of Past Experience Survey
forms. Emails show that Public Properties essentially took over most of the duties
usually performed by the CO.

In our interview with the CO, we discussed the VOSB status of Westar, and learned that
the CO could not even recall if Westar was a VOSB. The CO also stated that he could
not recall if Westar received any additional points for being a VOSB. In our interview of
the TEB members, we were told that Public Properties vetted the VOSB status of Westar.
When we interviewed the point of contact for Public Properties, he stated that Public
Properties verified Westar’s VOSB status by reviewing Westar’s certifications in the
Central Contractor Registration (CCR). We determined that Public Properties did not
review the Vendor Information Pages (VIP) at VA’s Center for Veterans Enterprise
(CVE) as required under the terms of the solicitation.

TEB members also stated that they sought information and advice from Public Properties
concerning the Past Performance Surveys. All TEB members stated that Public
Properties had no concerns or issues. In contrast, the point of contact for Public
Properties stated that he did comment to the TEB members that the Westar Past
Performance Surveys did not appear to represent “Westar’s” work, but rather represented
past experience of Westar’s “team members.” In fact, Westar had no prior past


VA Office of Inspector General                                                                            9
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

performance. A simple inquiry of the Federal Procurement Data System (FPDS) would
have shown that Westar had not been awarded any Government contracts. A simple
inquiry of VA’s Electronic Contract Management System (eCMS) would have shown
that the VA contracts identified in the Past Performance Surveys were not awarded to
Westar or any of its identified team members.

TEB members also stated that they sought information and advice from Public Properties
about the financial capability of the vendors. Most TEB members stated they did not
have the expertise or knowledge to make a meaningful determination about the financial
status and capability of the offerors. They said that they relied on assurance from Public
Properties that there were no apparent issues or red flags regarding the financial condition
of each vendor. The TEB members stated that they assumed that the financial condition
had been vetted by Public Properties or someone in Central Office. We concluded that no
one vetted Westar’s financial status. Based on the response to our subpoena, we found
that Westar had no business records, no employment records, and no financial records.

The CO stated that Public Properties was generally responsible for reviewing the
proposals, ensuring all required documents were submitted, preparing the TEB
documentation and scores. Public Properties was also responsible for putting the file and
package together and acting as stand-in for the project manager, when necessary. Emails
show that Public Properties also performed the pricing analysis and prepared the Price
Negotiation Memorandum for the CO.

Had VA or Public Properties conducted even the most minimal review to validate the
information contained in Westar’s proposal, Westar’s proposal would have been rejected.
However, our review of proposals submitted by Westar for four other construction
projects shows that these issues are not unique to the Butler HCC project. As discussed
in Section VII of this report, Westar’s proposals were all very similar with regard to
representations about past projects that were not properly verified during the award
process.




VA Office of Inspector General                                                                            10
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

III.	 The Butler HCC Lease was More Costly than VA Building and Owning
      the Butler HCC

The value of the lease payments totaled $152,733,559 over the 20-year life of the lease.
The cost of construction for the Butler HCC was estimated by Westar to be
approximately $65.8 million. The estimated appraised value of the property, once the
building was completed, was $90 million. The contract file did not include a Net Present
Value (NPV) analysis. When we asked about VA’s NPV analysis, VA officials provided
a NPV analysis that was done prior to award that showed a NPV of $47.2 million using
the Office of Management and Budget (OMB) discount rate of 3.5 percent. OMB
guidance contained in Circular A-11 states that the NPV should not exceed 90 percent of
the fair market value (FMV) to be considered an operating lease. VA used a FMV of
$95.1 million to determine that the NPV was only 49.64 percent of the FMV. Based on
this, VA concluded that the price was reasonable and passed the 90 percent of FMV
OMB test.

Our review of VA’s NPV calculation determined that it was in error. The total lease
payments during the 20-year lease are $152.7 million. OMB guidance states the NPV
analysis should only include the capital asset component of the lease. This is also
referred to as the base lease cost and is arrived at by subtracting the estimated operating
expenses and other expenses such as taxes and insurance. In our analysis, we subtracted
the estimated expense reported by Westar on GSA Form 1217. This resulted in a base
lease cost total of $107.6 million. We determined, as shown in Table 3, that the NPV for
the base lease cost is $76.6 million. Our review of the spreadsheet provided by VA found
that the spreadsheet appears to duplicate the NPV calculation, thus resulting in an
artificially lower NPV. OMB Circular A-11 also states that if the asset does not exist,
then the FMV should be the estimated construction costs for the asset, not an estimated
appraisal of the future asset. In our analysis we used an estimated construction cost of
$76.8 million, which we determined by using Westar’s estimate of $65.8 million plus
land cost of $1 million and architectural and engineering costs of $10 million. Ninety
percent of the estimated construction costs is $69.1 million, which is less than the NPV
for the base or capital cost of the lease as shown in Table 3.




VA Office of Inspector General                                                                            11
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

                                                 Table 3 

                                    Current and Net Present Value of 

                                   Full Lease Cost and Base Lease Cost

                          Period                 Full Lease Cost1         Base Lease Cost2
                        Initial Cost                    2,813,953                2,813,953
                          Year 1                        5,283,260                3,569,580
                          Year 2                        7,044,346                4,759,440
                          Year 3                        7,644,000                5,359,200
                          Year 4                        7,644,000                5,359,200
                          Year 5                        7,644,000                5,359,200
                          Year 6                        7,644,000                5,359,200
                          Year 7                        7,644,000                5,359,200
                          Year 8                        7,644,000                5,359,200
                          Year 9                        7,644,000                5,359,200
                          Year 10                       7,644,000                5,359,200
                          Year 11                       7,644,000                5,359,200
                          Year 12                       7,644,000                5,359,200
                          Year 13                       7,644,000                5,359,200
                          Year 14                       7,644,000                5,359,200
                          Year 15                       7,644,000                5,359,200
                          Year 16                       7,644,000                5,359,200
                          Year 17                       7,644,000                5,359,200
                          Year 18                       7,644,000                5,359,200
                          Year 19                       7,644,000                5,359,200
                          Year 20                       7,644,000                5,359,200
                  Total Lease Payments              $152,733,559              $107,608,573

                            Discount Rate                      3.50%                     3.50%

                                       NPV            $108,612,872                $76,692,080


Estimated Cost of Construction                                                    $76,800,000
OMB Operating Lease Threshold (90 percent of estimated
        construction costs):                                                      $69,120,000




1
  This column represents the actual lease payments.
2
  This column represents the capital cost portion of the lease payment. The operating expense portion of the lease
payments have been deducted. Estimated operating costs were estimated by Westar on GSA Form 1217. The base
lease cost used in our analysis is lower than the base lease cost of $6.3 million used in the PNM, which would make
the NPV higher.


VA Office of Inspector General                                                                                  12
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

`
IV.     VA Wrongly Dismissed the Protest of Westar’s Award

On June 19, 2012, one of the unsuccessful offerors filed a protest with the CO. This
offeror was next in line to receive the award if the protest was upheld. The protest was
filed in a timely manner within 10 days of the offeror’s briefing on June 14, 2012. The
protest was filed for two reasons. First, the unsuccessful offeror thought its proposal
represented the best value. Second, and more importantly, the unsuccessful offeror
argued that Westar should be disqualified as a non-responsible bidder because of
substantial evidence that Berryhill, a principal of Westar, embezzled money from his
prior employer (a real estate developer who also does business with the Government).

The evidence of Berryhill’s embezzlement from his former employer was an
“undisputed” finding in a Court Order issued by the Court of Common Pleas for
Cuyahoga County, Ohio, on December 20, 2011, in a civil case involving Berryhill and
Westar. The judge wrote that it was undisputed that Berryhill had embezzled the funds.
Although the CO requested an opinion from OGC, neither OGC nor the CO did anything
to follow-up on the information provided with the protest. On July 23, 2012, OGC issued
an opinion to the CO, which the CO relied on in dismissing the protest.

We reviewed the OGC opinion and determined that it contained errors. First, it stated
that there was no direct evidence that an FBI investigation existed. OGC referred to the
alleged FBI investigation as “rumor and innuendo.” However, emails obtained during
our review show that the FBI had contacted the CO by telephone on June 1, 2012,
informing the CO of the FBI investigation of Berryhill and seeking all proposals
submitted by Westar and Berryhill. The FBI agent followed up with a letter on June 4,
2012, and requested all proposals submitted by Berryhill and Westar back to 2009. The
agent also stated in the letter that Berryhill was aware of the investigation. The CO
coordinated a response to the FBI with OGC Staff Group V. Therefore, there was
independent and direct corroboration in VA’s files confirming that there was an FBI
investigation. Second, as noted above, the decision issued by the judge in the civil case,
which was provided with the protest, was based on the undisputed fact of Berryhill’s
embezzlement. Berryhill admitted to the embezzlement; he did not deny it. However,
OGC erroneously advised that there must be an indictment and conviction to make a non-
responsibility determination. This is inconsistent with FAR provisions regarding
responsibility determinations. FAR 9.104-1 provides general standards regarding making
a responsibility determination of a prospective contractor. It does not specifically state an
indictment or conviction is necessary, but rather states that the prospective contractor
must, “Have a satisfactory record of integrity and business ethics.” OGC also stated that
any lack of integrity on the part of Berryhill could not be conceivably imputed to Westar.
However, not only was Berryhill a principal of Westar, but he was the majority member
(owner) of Westar per the records with the Ohio Secretary of State, and Westar had no



VA Office of Inspector General                                                                            13
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

other employees, no other projects, and no other assets. In addition, Westar was also
specifically named in the civil litigation cited in the protest.

On June 3, 2013, we interviewed the CO. The CO’s responses to our questions about the
protest were inconsistent, inaccurate, and troubling. When asked if he recalled the protest
regarding VA’s award of the Butler HCC to Westar, he stated he did. However, he stated
the protest was also filed with GAO. When we informed the CO that there is no record
of a GAO protest and that the protest appeared to have been filed with him alone, the CO
said that there must have been two simultaneous protests, one to GAO and one with the
Agency. When we questioned the CO on how two simultaneous protests would work, he
explained that he would make a decision, the GAO protest would continue, and they
would then get a decision from GAO, too. The CO reiterated that he was sure the protest
went to GAO and that the protest was denied by GAO. However, there are no records
supporting his statement. Our review of the lease file shows that there was only one
protest and that it was filed with the CO. No protest was filed with GAO and an
unsuccessful offeror or interested party cannot file simultaneous protests.

When we asked the CO to focus on the protest to VA, he stated that he had not made any
decision regarding the protest. He asserted that another CO reviewed the file and protest
documents and made the decision in consultation with OGC. During further questioning
about who made the decision, the CO at times would assert that GAO made the decision,
but if there was an agency decision, it was another CO and not him. The CO was asked if
he was concerned at all about the protest and whether it had merit. He responded that he
was concerned because he was the CO for the Butler HCC. However, at no point during
the interview did the CO acknowledge that he had any role in the protest decision.

The documents in the file clearly contradict the CO’s responses. The CO for the Butler
HCC lease made the decision and signed and issued a final decision to the unsuccessful
offeror who filed the protest. We also found the CO’s answers troubling because our
interview was not unannounced but requested and scheduled days in advance. As such,
he had time to review the file prior to the interview.




VA Office of Inspector General                                                                            14
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

V. Michael Forlani’s Companies Were Involved in the Butler HCC Proposal
   Submitted by Westar

The OIG review was initiated in late March 2013 based on an anonymous contact who
stated that Westar, which was the developer for the Butler HCC, was financed and
backed by Michael Forlani. Forlani and his related companies were suspended by VA in
December 2011. Forlani was indicted in November 2011 and pled guilty to bribery and
racketeering charges in 2012. He was sentenced on April 1, 2013, to eight years in
prison. Forlani was the sole member of Veterans Development, LLC (VetDev) when
VetDev won the Enhanced Use Lease (EUL) for the 100-acre VA hospital in Brecksville,
Ohio. VA used the EUL with VetDev to lease a 6-story administration building, 2,000
space parking garage, and 120-bed domiciliary in the Wade Park section of Cleveland
where the main Cleveland VAMC is located. The OIG conducted an in-depth review of
the EUL and issued the report titled, Review of the Enhanced Use Lease between the
Department of Veterans Affairs and Veterans Development, LLC, on September 28, 2012.

Our review determined that Michael Forlani was involved in the Butler HCC from the
beginning. We found that Forlani was a named partner in Westar’s original expression of
interest to VA in early 2010; that Zenith purchased the site where Westar proposed
building the Butler HCC; Sam Calabrese, a Forlani employee and consultant, was
appointed an executive of Westar; and, Forlani’s spouse, Patricia Lawley, was given
membership in the original Special Purpose Entities (SPE) created for the Butler HCC.
We also found that another member agreed to pay Forlani’s spouse the amount paid for
the Deshon Woods property.

Westar’s Initial Expression of Interest. When VA first solicited parcels of land from
interested parties, Westar had submitted two potential parcels for consideration. In the
package submitted by Westar, Forlani and Zenith are clearly named as part of the Westar
“team.” This occurred early in 2010 prior to Forlani’s indictment and his name is
prominently used in Westar’s expression of interest and its submission of land parcels for
VA’s consideration.

Land Purchase by Zenith. On July 22, 2010, Zenith entered into a purchase contract for
the Deshon Woods parcel with the Butler Township. Zenith was a Forlani company and
was formerly doing business as Doan Pyramid. Records show that Zenith entered into
the purchase contract with Butler Township for $2.385 million. The full purchase price
went into escrow until the buyer or affiliated entity entered into a lease with VA for the
Butler HCC. The individual representing and signing for Zenith was Sam Calabrese,
who was employed by Zenith at the time. Zenith assigned the purchase contract to
Westar on August 30, 2011, for unspecified “good and valuable consideration.” The
assignment was signed by Calabrese for Zenith, as Zenith’s General Counsel. Berryhill
signed representing Westar as its Senior Vice President. Calabrese was identified as the
President of Westar during this time period. In the normal course of business, a clear


VA Office of Inspector General                                                                            15
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

conflict of interest would have existed for Calabrese to act as General Counsel for Zenith,
while an appointed executive for Westar, unless both companies were related.

In addition to the land purchase by Zenith, our review also determined that Zenith
arranged for its surety company, Liberty Mutual, to issue a $100,000 bid bond for Westar
for the Butler HCC proposal. Our review of the bid bond contained in the contract file
found that it was not properly executed by executives of Westar. We issued a subpoena
to Liberty Mutual for financials and other records submitted to Liberty Mutual in the
process of obtaining the bid bond. Liberty Mutual’s first response was that Westar was
not a customer of Liberty Mutual as a search determined that there was no account in
Westar’s name. Further investigation by Liberty Mutual determined that the bid bond
was validly issued by an agent of Liberty Mutual at the request of Zenith who does have
an account at Liberty Mutual. The Liberty Mutual official stated that it was not
uncommon to issue a low risk bond as a “favor” to an entity who is not a customer of
Liberty Mutual at the request of a Liberty Mutual customer. The official stated that
usually it indicates a “close” relationship between the companies. The official further
stated that Westar submitted no financial information because Zenith gave assurance to
Liberty Mutual that Zenith would stand behind the bid bond if payment was ever
required. Records produced by Liberty Mutual confirm that the bond was approved
under an agreement between Michael Forlani on behalf of Zenith and Liberty Mutual.
Records also indicate that at Zenith’s request, Liberty Mutual provided the bid bond for
Westar’s Winston-Salem proposal dated December 3, 2012.

The Appointment of Sam Calabrese as President of Westar. Westar was founded and
started by Berryhill in 1998. Official records with the Secretary of State for Ohio show
that Berryhill was the majority member.3 Documents from early to mid-2010 show
Berryhill’s title was President of Westar, while Calabrese’s title was Vice President. For
example, when Calabrese executed an Option to Purchase Land with a land owner his
title was Vice President. However, by late 2010 and early 2011, Berryhill’s consistent
title was Vice President, and Calabrese’s title was President. Berryhill’s position or title
was reduced to Project Manager for the Butler HCC project after award. Our review of
the operating agreements for the subsequent LLCs show that Calabrese’s capital
contribution was $0. In light of Calabrese’s long standing relationship with Forlani, as
his attorney at Doan Pyramid and VetDev and the fact that Calabrese made no capital
contribution, we conclude it represents additional evidence of Forlani’s control of Westar
via Calabrese. In his response to a subpoena, Calabrese stated that he was an authorized
representative for VetDev from 2006 through 2012 and an employee of Zenith from
January 2010 to April 20, 2012. Beginning in 2013, Calabrese was an employee of
VetDev Office/Parking and a consultant for VetDev Domiciliary. We subpoenaed all
business records for Westar and none were provided. Westar had no employment,
financial, corporate or other records usually kept in the normal course of business.

3
    A more complete history of Westar is given in the VOSB section.


VA Office of Inspector General                                                                            16
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center



Patricia Lawley Trust Investment and Ownership. In September 2011, Westar
principals created a SPE to build and manage the Butler HCC. Lenders typically require
developers to create an SPE for each project or property the developer has created to
protect the lender from a potential failure of another project. Westar principals initially
created two SPEs. The first was VA Partners Butler Company, LLC. The members were
as follows:


                                             Table 4 

                                 VA Partners Butler Company, LLC 

                                           Membership

                                                            Capital    Membership
                       Member                             Contribution   Interest
                 Patricia Lawley Trust                     $2,385,000      40%
                 R&D Development (Ross Farro)                        0     23%
                 Mary Berryhill, Trustee                             0     17%
                 Sam Calabrese                                       0     10%
                 Thomas Charek, Sr.                                  0     10%

The second entity was created to manage and maintain the property during construction
as well as manage the building once it was completed and occupied by VA. The entity
was VA Partners Management Company, LLC. The members were as follows:

                                            Table 5 

                             VA Partners Management Company, LLC 

                                          Membership

                                                            Capital    Membership
                      Member                              Contribution   Interest
                Patricia Lawley Trust                               $0     35%
                R&D Development (Ross Farro)                         0     31%
                Mary Berryhill, Trustee                              0     24%
                Sam Calabrese                                        0     10%

“Westar” decided not to use these two entities for the Butler HCC for reasons that are not
entirely clear. Berryhill told us that he insisted that Forlani and Patricia Lawley,
Forlani’s wife, be removed from the project because of Forlani’s indictment, while Farro
stated that they were removed because of concerns raised by the CO. However, the CO
stated that he was not aware of Forlani’s or Patricia Lawley’s involvement, investment,
or ownership, and had no discussion with Farro concerning Forlani’s or Patricia Lawley’s
ownership. In May 2012, just weeks before VA awarded the Butler HCC lease to
Westar, new LLCs were created with the following membership structure:




VA Office of Inspector General                                                                            17
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

                                                Table 6 

                                   VA Butler Partners Company, LLC 

                                              Membership

                                                               Capital           Membership
                      Member                                 Contribution          Interest
                 R&D Development (Ross Farro)                           0            38%
                 Mary Berryhill, Trustee                                0            28%
                 Sam Calabrese                                          0            17%
                 Thomas Charek, Sr.                                     0            17%



                                           Table 7 

                              VA Management Partners Company, LLC 

                                         Membership

                                                              Capital            Membership
                      Member                                Contribution           Interest
                 R&D Development (Ross Farro)                           0            33%
                 Mary Berryhill, Trustee                                0            33%
                 Sam Calabrese                                          0            33%

The newly created LLCs show that no one made any capital contribution. Our review of
records show that Patricia Lawley’s contribution of $2.385 million was not returned.
Farro personally signed two Cognovit Notes4 to Patricia Lawley for a total amount of
$2.658 million. We note that even though Farro was apparently promising to pay Patricia
Lawley back her capital contribution, Farro is not credited with any capital contribution.

The documents clearly show that Forlani was involved with Westar and that he, or his
spouse, were the only ones that made any significant capital contribution. His name is
prominently used in the initial offerings to VA, Zenith purchased the land, Calabrese took
over from Berryhill as President, and the original documents name Patricia Lawley as the
largest member and the only one who made a capital contribution. While Forlani and
Patricia Lawley were officially removed from the membership of the LLCs that were
used for the Butler HCC, we cannot be confident that Forlani, or his influence, was
completely removed from the project, especially considering that Calabrese was
prominently involved in the Butler HCC project prior to the land acquisition by Zenith
Systems and continuing through award. However, since VA terminated the lease prior to
any money moving from VA to VA Butler Partners Company, LLC, in the form of lease
payments, it is impossible to “follow the money” to determine if Forlani or his spouse
would have actually received money from the project.

Our review also determined that VA officials did not know who the owner(s) of Westar
were. We determined that when VA executed the assignment of the Butler HCC lease
4
   A Cognovit Note is a type of promissory note that allows a creditor to obtain a judgment against a debtor without
legal proceedings.


VA Office of Inspector General                                                                                   18
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

from Westar to VA Butler Partners Company, LLC, VA did not take any steps to
determine who the owner(s) of VA Butler Partners Company, LLC were. This allows the
possibility of VA contracting with excluded parties and also raises issues of liability and
responsibility issues under the performance of the lease. When the lease was awarded,
we found that Westar had a single member or owner. However, after the award and
assignment of the lease, we determined that VA Butler Partners Company, LLC was
wholly owned by another LLC, VA Butler Partners Holding, LLC. This LLC was then
owned by four different individuals, trusts, or LLCs. The ownership structure is
illustrated in Appendix B.




VA Office of Inspector General                                                                            19
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

VI. VA Failed to Verify Westar’s Veteran-Owned Small Business Status

Section 2.3.4 of the SFO notified offerors that there would be credit given during the
evaluation process for “eligible” Service-Disabled Veteran-Owned Small Businesses
(SDVOSB), VOSBs, and other small businesses. SDVOSB would be given full credit
and VOSBs would be given partial credit greater than the partial credit given all other
small businesses.

To receive full or partial credit, an offeror that is not currently in VetBiz had to become
verified by the time of award. The solicitation listed the criteria for verification and
stated that the minimum submittal shall include

        a.	 Acknowledgment from www.vetbiz.gov that they had applied and were
            being processed within the VIP database. A copy of the automatically
            generated email from VetBiz or a signed acknowledgment of
            application from VA;
        b. A redacted copy of the veteran’s VA Service-Connected Disability file;
            and
        c.	 A copy of the veteran’s DD-214, indicating an honorable discharge.
        d. Completed registration in VIP was required as part of the Final Proposal
            Revisions.

Westar misrepresented itself as a 100 percent Veteran-Owned Small Business which
resulted in the award of an additional four points during the technical review process. As
noted in our June 13, 2013, Management Advisory Memorandum, the evidence does not
support a finding that Westar is or ever has been a Veteran-Owned Small Business. We
contacted the CVE and determined that no VA Form 0877s were completed or started by
Westar nor has CVE ever been contacted by a company that matched Westar’s name or
DUNS number. In addition, no records were produced in response to our subpoena to
Westar that supported any contact or application to CVE had been made. In response to
our subpoena request for “Records submitted to the Center for Veterans Enterprise to
verify veteran-owned status,” Calabrese, through counsel, advised that there were no
responsive documents. He further stated that it “was confirmed by Department of
Veterans Affairs CO [CO] during the final pre-award meeting that Westar Development
Company, LLC was not receiving credit as a Veterans Enterprise as such in the
Department of Veterans Administration’s [sic] consideration of the Westar Development
Company LLC submittal.” However, neither Westar nor Calabrese produced any records
in response to our subpoenas to support this assertion. In an interview with OIG staff on
June 3, 2013, the CO did not recall any such discussion. Furthermore, we could not find
any evidence of a discussion of this nature in any emails or other records that we obtained
and reviewed. More importantly, Calabrese’s statement is inconsistent with the written



VA Office of Inspector General                                                                            20
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

record because the technical scores show that Westar was given four points based on its
claim that it was a veteran-owned small business.

Although it is clear that Westar misrepresented itself as a VOSB, our review determined
VA, either independently or through Public Properties, did not take appropriate actions to
ensure compliance with the terms and the solicitation before awarding the four points for
VOSB status. Because Westar was not registered in VetBiz at the time it submitted its
proposal, to be considered for additional points based on its status as a VOSB Westar was
required to submit a copy of the automatically generated email from VetBiz or a signed
acknowledgement of application from VA and a copy of the veteran’s DD-214,
indicating an honorable discharge. Westar did not submit the required documentation
with its proposal and neither the CO nor Public Properties followed-up on the
requirement at the time of submission or when they reviewed the technical scores. The
solicitation also stated that completed registrations in VIP was required as part of the
Final Proposal Revisions. Westar did not provide the required documentation and neither
the CO nor Public Properties followed-up through Westar or by checking VetBiz.

Our review of the four other proposals submitted by Westar found that Westar claimed
that it was a VOSB on all four. The latest of these proposals was for the Winston-Salem
HCC dated December 3, 2012, and the Monterey HCC dated January 22, 2013. There is
no evidence that VA took the steps required to verify the veteran-owned status on any of
the other proposals by Westar as required in the solicitation.




VA Office of Inspector General                                                                            21
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

VII.	 VA Took No Action to Verify Westar’s Past Performance and
  Experience

As described in detail in our June 13, 2013, Management Advisory Memorandum
(Appendix A), Westar grossly misrepresented its past performance and experience in its
proposal. Contrary to representations in the proposal, we determined that Westar had not
developed a single project since its inception in 1998. Copious information, including
Berryhill’s own statements, supports this undisputed fact. In a deposition taken on June
18, 2012, in the civil case involving Carnegie, Berryhill testified that Westar was shelved
immediately after he created it in 1998 and that, “Nothing was done with Weststar [sic].”
It was not until sometime in or around 2010, a couple of years after Carnegie terminated
him for embezzling funds, that Berryhill began using the Westar name to make proposals
on several Government projects. Although Westar’s 2012 proposal to build/lease the
Butler HCC was successful, our queries of the FPDS failed to identify any
contracts/leases awarded to Westar prior to the Butler project. Westar further confirmed
in its response to the subpoena that it had been dormant since 1998 by acknowledging
there was no listing of prior commercial or Government projects that Westar had
developed.

We found no evidence in the documents provided that anyone in VA or on VA’s behalf
attempted to verify Westar’s claims regarding past performance and experience. A
simple check of FPDS would have shown negative results for Westar. Many of the past
performance statements submitted with the proposal identified VA contracts; however,
no one verified the information or sought an opinion on performance. A simple check of
FPDS and/or eCMS (VA’s electronic contract management system) using the identified
contract numbers would have shown that vendors listed as subcontractors on the past
performance forms were actually the prime contractor. We noted that the CO was listed
on several past performance forms as the CO for the stated contract; however, our review
of records in eCMS showed that he was not the CO of record. When we spoke to the
TEB members, they told us that they had very limited time for the technical evaluation
and did not verify any of Westar’s past experience. Rather they relied on input from
Public Properties that there were no concerns regarding Westar’s past performance or
experience.

Our review of the four other proposals submitted by Westar found that Westar claimed
almost the same identical past experience as in its Butler HCC proposal with only slight
differences or variations. The four other proposals identified the same misrepresentations
that were in Westar’s Butler HCC proposal that reference Westar’s assets, facilities,
tenants, and other projects. Our review of Westar’s Butler proposal and the other four
proposals found that Westar used the same Operations and Maintenance Plan. This
Operations and Maintenance Plan was a nearly verbatim copy of an Operations and
Maintenance Plan used by another developer that Berryhill had previously worked for. In
one of the proposals there were several places where Westar failed to change the name of


VA Office of Inspector General                                                                            22
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

the developer to Westar; however, it does not appear that anyone identified or questioned
the discrepancy. Westar had no experience operating and maintaining a building and
used, without authorization, another developer’s plan as its own. The technical
evaluation specifically reviewed and scored the operating and maintenance plan and
Westar received 65 percent of the potential points. We found no evidence that VA took
steps to verify Westar’s past performance or experience in any of the other four proposals
submitted by Westar.




VA Office of Inspector General                                                                            23
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

VIII. VA Took No Action to Verify Teaming Agreements of Westar

As detailed in our June 13, 2013, Management Advisory Memorandum, we found that
Westar did not have any agreements, formal or informal, written or verbal, with two of its
critical team members: William Montague, consultant to Westar; and LDV, the
identified GC for the Butler HCC. Montague was the former director of the Louis Stokes
Cleveland VAMC and his involvement would have brought, at least in appearance,
knowledge and credibility to the Westar team. LDV was named as the GC for the Butler
HCC; thus, making LDV an absolute critical part of the team. Both of these team
members caused Westar to receive a higher technical score during the technical
evaluation; however, neither was committed to the Butler HCC with Westar as evidenced
by the lack of any formal written agreement or any other documentation that would
evidence a relationship between Westar and Montague and Westar and LDV. Although
documentation produced in response to the OIG subpoenas shows that there were at least
some discussions between Westar and LDV regarding the project, there was no
agreement. More importantly, approximately one month after the proposals were
submitted, but more than three months prior to award, LDV notified Westar that it would
not be able to obtain funding for the project. However, Westar did not notify VA until
almost six months after award. Having a qualified and acceptable GC was a requirement
for consideration for award. Without LDV or other similarly experienced GC on the
project, Westar’s proposal would have been rejected.

Although there is no requirement for the offeror to submit documentation showing that
there are formal teaming arrangements, because this is often a critical evaluation factor,
we recommend that VA require such documentation with the proposal and require that
the offeror notify VA of any changes prior to award. This is not dissimilar to contracts
that include a technical component relating to the qualifications of personnel who are
expected to perform the work under a contract.




VA Office of Inspector General                                                                            24
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                          Conclusions 

Our review of the award of the Butler HCC Lease to Westar determined that Westar
received the award based on false and misleading representations. We also determined
that changes in VA’s process for awarding leases resulted in a preference for Westar, that
VA did not follow its own processes, and that VA did not properly verify key information
in Westar’s proposal even when warning indicators were present. VA’s change from a
two-step to a one-step process favored Westar because Westar was the only developer
who had control of the land parcel that VA clearly favored. The decision to move to the
one-step approach is not supported by evidence or a sound decision making process.

VA did not follow the process outlined in the solicitation to verify the VOSB status of
Westar. Due to the failure by VA and Public Properties to enforce compliance with the
terms of the solicitation, Westar received four points for its representation that it was a
veteran-owned business; points that it should not have received. These failures are in
part due to relying on the real estate broker to receive and verify the proposals from the
developers while there were no clear tasks of what the broker was to do or did regarding
issues such as VOSB status, past performance, and financial background of the
developers submitting proposals.

We also found that VA incorrectly dismissed the protest of the award to Westar. The
decision that the protest was without merit was not supported by the evidence. Although
the CO appears to have relied on advice from OGC, the advice was based on factual and
legal errors that the CO should have recognized and discussed with OGC. A detailed
review of the materials submitted during the protest by the CO, as well as the CO
informing OGC of the confirmed FBI investigation of Berryhill, would have likely
resulted in a further investigation by VA of Westar and potentially a decision to uphold
the protest.




VA Office of Inspector General                                                                            25
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center


                                     Recommendations 

We recommend that the Principal Executive Director, OALC:
 
    1.	 Adhere to the two-step acquisition process for future leases. VA should develop
          objective criteria to determine when it is necessary to change to a one-step process
          and consult with OGC.
    2.	   Determine the need and the value of a real estate broker for lease acquisition and,
          if a need exists, define specific deliverables and/or tasks a real estate broker is
          responsible to provide.
    3.	   Ensure the CO takes an active role in decisions and does not abdicate
          responsibility to the project manager or broker.
    4.	   Determine ownership of each LLC involved for future projects, including the SPE
          LLC if used by the developer.
    5.	   Ensure that the CO verifies that a vendor is in the CVE database when claiming a
          veteran-owned business status.
    6.	   Develop procedures or criteria that ensure financial analysis, such as NPV, is
          accurate and reliable.
    7.	   Establish requirements that Past Performance Survey Forms be verified. Searches
          should be conducted online in FPDS for Government-wide contracts. Searches
          should be conducted online in the Electronic Contract Management System
          (eCMS) for VA contracts. Contact should be made with the project owner to
          discuss vendor’s role as disclosed on the Past Performance Survey Forms. Focus
          should be on the entity, not only the individuals.
    8.	   Require vendors to submit documentation, such as teaming arrangements, that key
          team members such as architects, engineers, and GCs are committed and able to
          do the project.




VA Office of Inspector General                                                                            26
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center



                                            Acronyms
CCR—Central Contractor Registration
CO—Contracting Officer
CFM—Construction and Facilities Management
CVE—Center for Veterans Enterprise
DUNS—Data Universal Numbering System
eCMS—Electronic Contract Management System
EUL—Enhanced Use Lease
FBI—Federal Bureau of Investigation
FMV—Fair Market Value
FPDS—Federal Procurement Data System
GC—General Contractor
GSA—General Services Administration
HCC—Health Care Center
IDIQ—Indefinite Delivery/Indefinite Quantity
LLC—Limited Liability Company
NPV—Net Present Value
OALC—Office of Acquisition, Logistics, and Construction
OCR—Office of Contract Review
OGC—Office of General Counsel
OIG—Office of Inspector General
OMB—Office of Management and Budget
SA—Special Agent
SDVOSB—Service-Disabled Veteran-Owned Small Businesses
SFO—Solicitation for Offers
SOW—Statement of Work
SPE—Special Purpose Entity
TEB—Technical Evaluation Board
VA—Department of Veterans Affairs
VAMC—Veterans Affairs Medical Center
VIP—Vendor Information Pages
VOSB—Veteran-Owned Small Business



VA Office of Inspector General                                                                            27
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A

               OIG Management Advisory Memorandum Issued to VA
                               on June 13, 2013



                                          DEPARTMENT OF VETERANS AFFAIRS

                                             Office of Inspector General

                                               Washington, DC 20420



June 13, 2013

                Office of Inspector General Management Advisory Memorandum
  
                       Regarding False and Misleading Statements made by
  
                        Westar Development Company, LLC in its Proposal
  
                          for the Butler, Pennsylvania Health Care Center
 

Westar Development Company, LLC (Westar) submitted a proposal on January 10, 2012 in
response to SFO VA-101-10-RP-105 (SFO). The SFO was a build lease for a Health Care
Center in Butler, Pennsylvania (Butler HCC). Five other responsive proposals were submitted in
response to the SFO. Westar received the highest score on the technical evaluation and was
deemed the best value. The lease was awarded to Westar on May 31, 2012.

In late March 2013, the Department of Veterans Affairs (VA), Office of Inspector General (OIG)
received allegations that Westar was actually conducting business for entities created and
managed by Michael Forlani that were suspended by VA in December 2011. Michael Forlani
was indicted in November 2011 and pled guilty to bribery and racketeering charges in 2012. He
was sentenced on April 1, 2013, to eight years in prison.

In response to the allegations, the OIG Office of Contract Review (OCR) obtained a copy of the
Butler HCC contract file and gathered other publicly available records for review. The records
show Westar’s proposal was submitted by Robert J. Berryhill in his capacity as the Senior Vice
President of Westar. The records further show that Berryhill was the primary contact point
through the time of award, after which the primary contact point appears to be Samuel Calabrese,
who is identified in the proposal as the President of Westar. Based on our initial review of the
records, we questioned the veracity of representations contained in Westar’s technical proposal,
in particular representations relating to past performance, experience, and teaming arrangements
for the project. We also questioned whether Westar was a veteran-owned business. VA
personnel relied on these representations during the technical evaluation, resulting in technical
scores that put Westar eight points ahead of its closest competitor.

Our review of the records also raised concerns as to whether VA properly determined that
Westar was a responsible vendor. For example, there are no records of prior Government
contracts awarded to Westar despite claims of such contracts in the proposal. Our concerns



VA Office of Inspector General                                                                            28
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
regarding Berryhill and Westar intensified when a criminal information was filed on April 3,
2013, against Berryhill. Attachment 1, Criminal Information. Berryhill not only submitted the
proposal on behalf of Westar but, according to records maintained by the Ohio Secretary of
State, he established Westar and is the majority owner/member. The criminal information
included five counts of Mail Fraud, two counts of Wire Fraud, one count of False Impersonation
of an Officer or Employee of the United States, and one count of Aggravated Identify Theft. The
charges related to the embezzlement of funds for the construction of the FBI office in Knoxville,
Tennessee. When the criminal conduct occurred, Berryhill was a Senior Vice President at
Carnegie Management and Development Corporation (Carnegie). Id. On April 23, 2013,
Berryhill pled guilty to all charges and is scheduled to be sentenced in late July.

The contract file shows that information provided to VA as part of a protest filed after the award
to Westar raised serious questions regarding the integrity (and thus responsibility) of Berryhill,
as an individual, and Westar as a business entity. Documents provided with the protest included
records from a civil case in which Berryhill’s former employer, Carnegie, sued Berryhill and
Westar. One of the documents provided was an Order and Opinion issued by the Judge in the
civil case. The Judge’s determination regarding the validity of claims against Carnegie filed by
Berryhill’s wife, as the Trustee for the Berryhill Family Trust, was based on Berryhill’s
admission that he had embezzled funds from a Carnegie project. Another document included
with the protest was a resume that Berryhill posted on LinkedIn which cast doubt on the veracity
of statements in the proposal relating to both Berryhill and Westar’s experience on similar
projects. The OIG subpoena issued to Westar requested business records, including but not
limited to meetings, W-2s, K-1s, and 1099s issued by Westar, and all other financial records.
The responses stated that no such records exist. Attachment 2, May 24, 2013 Letter Response to
Subpoena to Westar. This raises the question whether Westar was a legitimate business entity at
the time of award.

We presented our initial concerns to the Office of Acquisitions and Logistics (OAL) and
Construction and Facilities Management (CFM) on April 25, 2013. As we obtained additional
information, we provided it to OAL and CFM for consideration. For example, the only copy of a
bid bond we could find in the record was not signed by the principals. After the meeting, we
obtained additional information from Carnegie, as well as property and other public records. We
also obtained information through subpoenas issued to various individuals and entities, including
Berryhill, Calabrese, Mary Berryhill on behalf of the Berryhill Family Trust, R&D Development,
VA Butler Partners Company, LLC, VA Butler Partners Holding, LLC, Carnegie, and Liberty
Mutual Insurance Company. In addition, we spoke with Berryhill when he hand-delivered
records in response to the subpoena and we interviewed the Butler HCC Contracting Officer.

Based on the information obtained, we concluded that Berryhill and Westar made false and
misleading statements in the technical proposal that VA relied on when evaluating the proposal
and awarding the lease to Westar. We also concluded that Westar did not qualify as a veteran-
owned business. Regardless of whether the information provided with the protest was sufficient
for the Contracting Officer to make a determination that Berryhill and/or Westar were not
responsible, the false and misleading statements in the technical proposal resulted in Westar
receiving higher technical evaluation scores than its competitors. But for these false and
misleading statements, Westar would not have been awarded the lease.


VA Office of Inspector General                                                                            29
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
The purpose of this report is to provide VA officials with the information obtained during our
review relating to the false and misleading statements regarding past performance, experience,
and teaming arrangements for the Butler HCC project. We also provide information as to false
and misleading statements concerning Westar’s status as a veteran-owned business.

Issue 1: Whether Westar misrepresented its past performance and experience on its proposal
for the Butler HCC.

Finding: Westar did misrepresent its past performance and experience in its proposal. Contrary
to representations in the proposal, we determined that Westar had not developed a single project
since its inception in 1998. Copious information, including Berryhill’s own statements, proves
this point. In a deposition taken on June 18, 2012, in the civil case involving Carnegie, Berryhill
testified that Westar was shelved immediately after he created it in 1998 and that, “Nothing was
done with Weststar [sic].” Attachment 3, Robert J. Berryhill June 18, 2012 Deposition
Transcript, pp. 58 and 60. It was not until sometime in or around 2010, after Carnegie
terminated him for embezzling funds, that Berryhill began using the Westar name to make
proposals on several Government projects. Although Westar’s 2012 proposal to build/lease the
Butler HCC was successful (there may have been another successful proposal made for an
Enhanced Use Lease in Louisiana), our queries of the Federal Procurement Data System failed to
identify any contracts/leases awarded to Westar prior to the Butler project. Westar further
confirmed the fact that it had remained dormant since 1998 when it responded to an OIG
subpoena by acknowledging there was no listing of prior commercial or Government projects
that Westar had developed. Attachment 2.

It seems to be an undisputed fact that Westar had no prior experience and had no track record of
building any projects, let alone a project of the magnitude of the Butler HCC.

Nevertheless, Westar’s proposal clearly touts the company’s successful experiences in real estate
development and management. Our review shows that statements in the proposal related to
experience and past performance were deliberately false and misleading. These statements do
not merely imply or suggest that Westar has vast experience in this type of project; rather,
Westar makes statements that boldly point to its significant experience and proven history of
success. For example, Westar makes specific statements in its proposal that reference Westar
buildings and tenants. However, the reality is that Westar owns no buildings or properties, and
cannot truthfully cite any track record in constructing or managing commercial or government
buildings. Documents further reveal Westar’s misguided attempts at overcoming such
deficiencies. In the Past Performance Survey Form section of the proposal, Westar takes credit
for numerous projects in which Westar, as a business entity, was not involved at any level or to
any degree. As discussed in detail below, many of the projects actually were awarded to
Carnegie. While Berryhill may have performed some work on those projects, he did so as an
employee of Carnegie, not Westar. Other projects listed were awarded to vendors who were not
part of the team identified in the proposal.

The table on the following page details fifteen specific false and misleading statements regarding
Westar’s past experience.



VA Office of Inspector General                                                                            30
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                                   Appendix A
False and Misleading Statement         Location               OIG Findings                        Reference
1. “Westar is an asset based           Proposal Letter, p.1   Westar had no assets.               Attachment 2
company…”                              Proposal, p.3                                              Attachment 3 pp.
                                                                                                  58 & 60
2. “We build high quality, pre-        Proposal Letter, p.1   Westar had built nothing.           Id.
leased credit tenant projects…”
3. “Because Westar owns and            Proposal Letter, p.1   Westar owned no projects.           Id.
manages all its projects…”             Proposal, p.3
4. “…tenants enjoy the benefits of     Proposal Letter, p.1   Westar owned no projects,           Id.
superior construction…as well as                              building, facilities, nor had any
operationally efficient facilities.”                          tenants.
5. “Having successfully completed      Proposal Letter, p.2   Westar had completed nothing        Id.
more than $400,000,000 in projects                            in the past 10 years.
over the past 10 years, for the
Federal Government and private
Sector provides the VA with the
security of knowing if Westar
undertakes a project, we will obtain
the financing, provide the equity
and complete the project on time
and on budget.”
6. “Each project undertaken has        Proposal Letter, p.2   Westar had not undertaken a         Id.
no less than three (3) Senior                                 single project at this time.
Management Members…”
7. “Because we do not sell our         Proposal Letter, p.3   Westar has not had a single         Id.
projects…”                                                    project to “not sell” yet.
8. “Our LEEDS experience…”             Proposal Letter, p.3   Westar itself has had no            Id.
                                                              experience.
9. “The Post Occupancy                 Proposal Letter, p.3   Westar has no buildings and no      Id.
Management of our projects are                                track record of project
heralded among the best in the                                management.
industry and score very high with
the government agencies in
Westar buildings.”
10. “Our semi-annual and annual        Proposal Letter, p.3   None ever conducted, but            Id.
inspections and reports…”                                     written as if there is a track
                                                              record.
11. “Westar served as the              Proposal, p.3          No record or agreement exists       Id.
development consultant for the VA                             to support this statement.
Wade Park Campus just recently
completed for the VA.”
12. “Because of the long-term          Proposal, p.3          Westar never owned, built, or       Id.
outlook, Westar buildings are higher                          managed a building to date.
quality…”
13. “Westar regards every              Proposal, p.3          Westar has no employees.            Attachment 2
employee…as a valued team
member…”
14. “Professional success starts       Proposal, p.3          Berryhill had admitted to           Attachment 1
with personal integrity.”                                     embezzlement and was under
                                                              investigation by the FBI.
15. “He [Calabrese] has just           Proposal, p.4          Sam Calabrese was not the           Attachment 4.a
completed the VA Wade Park EUL                                developer and appeared to
facility…”                                                    have a largely legal role as an
                                                              attorney in the project. This
                                                              does not qualify him as a
                                                              developer or give him right to
                                                              claim credit for the project.




VA Office of Inspector General                                                                                     31
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
As part of its proposal for the Butler HCC, Westar included 11 Past Performance Survey Forms
that make it appear as if the contract awards were to Westar. As previously stated, Westar had
no prior experience and the Butler HCC lease was its first contract award. Attachment 4 is a
detailed spreadsheet with supporting documents addressing misrepresentations in each of the 11
Past Performance Survey Forms. It is important to note that most of these contracts/leases
occurred when Westar was “shelved” and not active per Berryhill’s deposition testimony and at
that time period (1998- mid-2009), Berryhill was employed by Carnegie. The 11 non-Westar
projects in brief are as follows:

    a.	 VAMC Enhanced Use Lease, Cleveland and Brecksville, Ohio. The Past Performance
        Survey Form indicates that Westar was the primary contractor. However, VA signed the
        Enhanced Use Lease (EUL) with Veterans Development, LLC whose sole owner and
        member was Michael Forlani. VA did not award any contracts to Westar or any entity
        that Westar owned.
    b.	 Department of Veterans Affairs, James A. Haley VA Hospital, Tampa, FL. Westar
        indicated that it had conducted major electrical work at the Tampa VA Medical Center,
        which included a new generator, and high and low voltage switchgear. The contract
        award was to LDV, Inc. and Doan Pyramid, a Michael Forlani company, as a Joint
        Venture.
    c.	 Canton Federal Building, Canton, OH. Westar submitted that it developed the Canton,
        OH Federal Building; however, this was developed by Carnegie, Berryhill’s prior
        employer.
    d.	 Department of Veterans Affairs, Louis Stokes Medical Center, Cleveland, OH.
        Westar represented that it had constructed a new penthouse on the roof (EAST) and done
        HVAC and electrical renovation work for the Cleveland VA Medical Center. However,
        per VA records, we found that the contract was awarded to Brigadier Construction, who
        is listed as a subcontractor on the Past Performance Survey Form.
    e.	 FBI Building, Springfield, IL. Westar submitted that it had developed the FBI Building
        in Springfield, IL. However, we determined that this was a Carnegie project, not a
        Westar project.
    f.	 Department of Veterans Affairs, Louis Stokes Medical Center, Cleveland, OH.
        Westar submitted that it performed an “electrical medium voltage switchgear upgrade
        including new power company primary feeders and HVAC cooling tower renovations”
        for the Cleveland VA Medical Center. Records indicate that LDV, Inc. was the prime
        contractor for this project not Westar.
    g.	 GSA IDIQ Contract, Ohio. Westar submitted that it had a GSA IDIQ contract for
        repair and alterations. Westar listed eight task orders or projects issued under this
        IDIQ contract. However, we determined the IDIQ contract holder was Doan Pyramid, a
        Michael Forlani company.
    h.	 Department of Veterans Affairs, Louis Stokes Medical Center, Cleveland, OH.
        Westar submitted that it had constructed a new penthouse on the roof (WEST) and done


VA Office of Inspector General                                                                            32
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
        HVAC and electrical renovation work for the Cleveland VA Medical Center. VA records
        indicate that the Meadows Group was the prime contractor.
    i.	 FBI RMF/ERT Facility, Cleveland, OH. Westar stated that it built a 25,000 square
        foot facility for the FBI that includes office space and vehicle work bays. However, this
        facility was developed by Carnegie, not Westar.
    j.	 Social Security Administration Building, West Palm, FL. Westar claimed credit for
        developing and building this SSA structure. However, Government records again show
        this was a Carnegie project.
    k.	 IRS Regional Office, Springfield, IL. Westar stated that they built a “World Class
        Facility” for the United States Government; however, the project was developed by
        Carnegie.

While it may be true that Berryhill has some level of involvement in some of the projects
developed by Carnegie, the completed Past Performance Survey Forms do not identify or even
reference Carnegie as the prime contractor. The forms and other statements in the technical
proposal more than imply that these were all Westar projects developed and managed by
Berryhill and others associated with Westar.

We also found statements in the Westar proposal that misrepresented the prior
experience/expertise of Westar principals, namely Berryhill, Matt Duncan, and Calabrese. The
proposal gave them credit for projects that they did not work on, grossly overstated their roles on
projects, and fabricated work experience. On page 4 of Westar’s proposal, Berryhill is credited
with numerous projects. The proposal states that he will serve as the project manager “…with
the responsibility of oversight from inception to completion. He served in this exact role with
primary responsibilities for:

                	   Canton Federal Center, Canton, OH
                	   FBI Field Office Headquarters, Knoxville, TN
                	   FBI Field Office Headquarters, Indianapolis, IN
                	   FBI Field Office and RMF/ERT Facility in Springfield, IL
                	   IRS Office Building, Springfield, IL
                	   Westlake Family Health Center, Westlake, Ohio
                	   Several large multi-story Office Buildings, including
                     University Hospitals, Cleveland Clinic, Social Security
                     Administration, LESCO, ICI Glidden Paints North American
                     Headquarters, National City Bank Building, Struers
                     International Headquarters, Wachovia Securities Office
                     Building.”

The statements in the proposal notwithstanding, documents submitted to VA during the protest
and additional records we obtained relating to the civil litigation involving Carnegie, clearly
debunk Berryhill’s false and misleading claims regarding his involvement, roles, and


VA Office of Inspector General                                                                            33
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
responsibilities in various projects. Carnegie’s principals state that Berryhill had no involvement
in the Westlake Family Health Center, University Hospitals, Cleveland Clinic, LESCO, ICI
Glidden Paints North American Headquarters, National City Bank Building, Struers International
Headquarters, and Wachovia Securities Office Building. Attachment 5, May 30, 2013, email
from Carnegie. Although Berryhill was fired for embezzlement during the development of the
Canton Federal Center, the theft actually occurred during his work on the FBI Field Office
Headquarters in Knoxville, TN. Two weeks after the Butler HCC lease was awarded, in
response to a motion by Carnegie for a Temporary Restraining Order (TRO), Berryhill agreed
not to list or reference any projects developed, constructed, or owned by Carnegie or its related
LLCs. He agreed to remove references to the Canton Federal Building, LESCO, Gliatech, FBI
Knoxville, FBI Indianapolis, ICI Glidden Paints from his resume and the Westar website.
Attachment 6, June 14, 2012 Letter and draft TRO Order.

Statements in the proposal (as compared to statements provided to VA in April 2013 when
Berryhill was “fired” by Westar) regarding Duncan’s experience are likewise inconsistent and
inaccurate. Page 4 of the proposal lists specific projects that Duncan was alleged to have worked
on. It states that Duncan brings 25 years of management to the team and that he has structured
management plans for the:



                    FBI Office Building and RMF/ERT Facility in Springfield, IL
                    IRS Office Building, Springfield, IL
                    SSA Office Building, West Palm Beach, FL
                    ICI Glidden Paints North American Headquarters
                    Westlake Health and Medical Center
                    University Hospitals
                    Cleveland Clinic

Once again, these all appear to be Carnegie projects. Carnegie principals stated that Duncan
worked at Carnegie for approximately one year and that he never managed any property for
Carnegie. Attachment 5. Westar also claimed that Duncan managed, “Numerous other Westar
Medical Office and Retail and Special Use Projects around the country.” This statement is
clearly false because, as already established, Westar has no other buildings that Duncan could
have managed. Further, Westar included a resume for Duncan which states he began working
for Westar in August 1999 as Director of Property Management. His responsibilities included,
“improving property operations, increasing occupancy and maintaining the strong tenant
relationships that have been developed over the years.” His resume then shows a promotion at
Westar in June 2002 to Vice President in charge of all property management at Westar.
Attachment 7, Duncan resume contained in the proposal. However, as already established, it is
an undisputed fact that Westar was “shelved” and not used for anything during this time period.
When Westar terminated Berryhill after the criminal information was publicized, Westar notified
VA that Duncan would take Berryhill’s position. To support Duncan’s ability to take over for
Berryhill, Calabrese, as the President of Westar, submitted a resume for Duncan that did not


VA Office of Inspector General                                                                            34
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
include the Westar employment contained in the resume included in the proposal. Attachment 8,
April 8, 2013 email and attached Duncan resume.

Page 4 of Westar’s proposal identifies Calabrese as the President of Westar and states that he
will serve as the “Principal-In-Charge.” It is not clear when Calabrese became the President of
Westar. However, based on the responses to our subpoena Westar has no business or financial
record and has never issued W-2s, 1099s, or K-1s. In response to a subpoena issued to
Calabrese, we determined that he always has been employed by entities owned and controlled by
Michael Forlani or trusts established by Michael Forlani after the FBI investigation became
public following the execution of a search warrant.

Westar stated that Calabrese “has just completed the VA Wade Park EUL facility and
understands the technical requirements of medical office and treatment facilities.” This bold
statement gives the appearance that Calabrese was responsible for developing the buildings at the
VA Wade Park; however, he was not the developer. The developer was Veterans Development,
LLC, a Michael Forlani company. While Calabrese worked for Forlani and had a role in the
Wade Park buildings, his role appeared to be mostly legal and advisory in nature. This does not
qualify him as a developer or give him the right to claim credit for the project based merely on
the fact that he worked on the project. In a narrative response to a request in our subpoena for
records relating to his ownership/membership/employment and any other business relationship
with various identified companies, Calabrese described his past employment. He stated that
from 2006 through 2012 he was not employed by Veterans Development but acted as the
authorized representative for the company during that timeframe. Attachment 9, May 24, 2013
response to OIG subpoena from Samuel Calabrese. He also stated that he began employment
with Veterans Development Office/Parking, LLC on January 1, 2013, and began consulting for
Veterans Development Domiciliary, LLC as a 1099 consultant on January 1, 2013. He further
states that he worked for Zenith Systems, LLC as General Counsel from January 1, 2010, to
April 12, 2012. From January 1, 2006, to December 31, 2009, he was the General Counsel for
Doan Pyramid. Attachment 10, May 24, 2013, response to Calabrese subpoena. All the entities
listed are associated with Michael Forlani.

Issue 2: Whether Westar had any formal teaming arrangements.

Finding: We found that Westar did not have any agreements, formal or informal, written or
verbal, with two of its critical team members: William Montague, consultant to Westar; and
LDV, Inc. (LDV), the identified general contractor for the Butler HCC. Montague was the
former director of the Louis Stokes Cleveland VA Medical Center and his involvement would
have brought, at least in appearance, knowledge and credibility to the Westar team. LDV was
named as the general contractor for the Butler HCC; thus, making LDV an absolute critical part
of the team. Both of these team members caused Westar to receive a higher technical score
during the technical evaluation; however, neither was committed to the Butler HCC with Westar
as evidenced by the lack of any formal written agreement or any other record that would
evidence a relationship between Westar and Montague and Westar and LDV.

William Montague. Westar’s proposal stated that Montague and his consulting firm was on
board as part of the Westar team for the Butler HCC project and that he would provide practical


VA Office of Inspector General                                                                            35
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
insight into the plans and would work directly with the architect to ensure the interface between
VA and the architect was seamless. However, when Berryhill delivered documents in person in
response to an OIG subpoena, he stated that by the time Westar received the Butler HCC award,
Montague had informed Westar principals that he would not be involved with Westar on the
Butler HCC project. Request No. 13 in the subpoena to Westar asked for “documents that
support and describe the teaming arrangement with William Montague and/or House of
Montague Wealth and Management and Consulting.” In Calabrese’s written narrative response
to Request No. 13 in the OIG subpoena issued to Westar, he states that Montague was going to
work directly with Kaczmar/Bowen to ensure practicality of design. Calabrese stated that the
agreement was “a verbal agreement with no emails confirming his anticipated role.” Calabrese
further states that after award “Montague had moved on to other projects and was no longer
interested in working on this project. He communicated this decision to not be involved with the
project verbally as well. Accordingly, there are no documents regarding his anticipated role in
the Project other than as set forth in the Technical Proposal…” Attachment 2, Calabrese
response to OIG subpoena to Westar. Based on the responses from Berryhill and Calabrese,
there was no commitment by Montague to work on this project. We note that there was less than
5 months between the date the proposals were submitted and the award of the lease. Even if
there was an agreement, this significant change in the Westar “team” was never communicated
to VA.

LDV. Westar’s technical proposal identified LDV as the general contractor to build the Butler
HCC. About 50 pages in Section 5 of the Technical Proposal were documents detailing LDV’s
past experience and stated that VA can be assured of the “quality of construction with the LDV
name behind the project.” Our review determined that LDV was never involved in the project
and was not part of the team. Request No. 19 in the OIG subpoena to Westar requested all
“records relating to contracts, agreements, payments to or from, and other relationship or
communication with LDV Construction.” Id. The only document produced was an e-mail dated
February 2012, which demonstrates that LDV principals were doubtful that they could ever be
part of the Butler HCC project because their surety company, Travelers, had significant concerns
regarding a divorce of the owners and that there was still over $44 million in potential or
unresolved work. The e-mail shows that LDV was not willing to inform Travelers of the Butler
HCC project and had decided that no additional work could be taken on. Attachment 10,
February 12, 2012 email from LDV. In his narrative response, Calabrese provided an
explanation regarding Tom Charek’s role in the project as a partner and his relationship to LDV
but did not provide any records responsive to the request. We concluded that there is no
documentation to support statements in the Technical Proposal that LDV was part of the Westar
“team” and would be the general contractor on the project. Westar misrepresented that LDV
would be the general contractor for the Butler HCC. However, even if Westar had some reason
to believe that LDV would be the general contractor when the proposal was submitted, the email
shows that within a month they were aware that this was not the case and did not notify VA prior
to award on May 31, 2012. Emails show that Westar did not notify VA that LDV would not be
the general contractor until December 2012 when VA learned that Westar intended to use
Marous Brothers. Attachment 11, Emails relating to general contractor substitution.

The technical evaluation gave a potential of 2 points for the construction team qualifications
(Westar received a score of 1.48 out of 2), but the reality is that any proposal submitted without


VA Office of Inspector General                                                                            36
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
an identified general contractor for a build lease would most likely have been deemed not
responsive and would not even had been forwarded to the technical evaluation team. Therefore,
the real impact of Westar falsely stating that LDV was the general contractor for the Butler HCC
is not simply getting the 1.48 points, but getting the proposal deemed responsive.

Issue 3: Whether Westar Development Company, LLC (Westar) misrepresented itself as a
Veteran-Owned Small Business to qualify for additional points during the bid evaluation
process.

Finding: Westar misrepresented itself as a Veteran-Owned Business which resulted in a credit
of 4 points during the technical review process. Westar received a score of 39 during the
technical review.

Westar represented both during and after the procurement process that it was a 100 percent
veteran-owned business. Section 2.3.4 of the SFO notified offerors that there would be credit
given during the evaluation process for “eligible” SDVOSBs, VOSBs and other small
businesses. SDVOSBs would be given full credit and VOSBs would be given partial credit
greater than the partial credit given all other small businesses.

To receive full or partial credit, an offeror that is not currently in VetBiz had to become verified.
The solicitation listed the criteria for verification and stated that the minimum submittal shall
include

            a. Acknowledgment from www.vetbiz.gov that they had applied and were being
               processed within the VIP database. A copy of the automatically generated email
               from VetBiz or a signed acknowledgment of application from VA;
            b. A redacted copy of the veteran’s VA Service-Connected Disability file; and
            c. A copy of the veteran’s DD214, indicating an honorable discharge.
            d. Completed registration in VIP was required as part of the Final Proposal
               Revisions.

Westar is not and has never been listed in VetBiz. We contacted the Center for Veterans
Enterprise (CVE) and were advised that CVE has never been contacted by a company with
DUNS 086125650 (Westar’s DUNS). CVE has never been contacted by any company using the
name Westar Development Company or Diversified Realty Company, and that no 0877s were
started or completed by any of the above. Attachment 12, April 25, 2013 email from CVE. In
addition, no records were produced in response to our subpoena to Westar, to which we received
two responses, one from Berryhill and one from Calabrese. In response to a request for “Records
submitted to the Center for Veterans Enterprise to verify veteran-owned status,” Calabrese,
through counsel, advised that there were no responsive documents. He further stated that it “was
confirmed by Department of Veterans Affairs Contracting Officer John Blake during the final
pre-award meeting that Westar Development Company, LLC was not receiving credit as a
Veterans Enterprise as such in the Department of Veterans Administration’s [sic] consideration
of the Westar Development Company LLC submittal.” However, Calabrese did not produce any
records that supported this assertion. In an interview with OIG staff on June 3, 2013, Blake did


VA Office of Inspector General                                                                            37
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
not recall any such discussion. Furthermore, we could not find any evidence of a discussion of
this nature in any emails or other records that we obtained and reviewed. More importantly,
Calabrese’s statement is inconsistent with the written record because the technical scores show
that Westar was given 4 points based on its claim that it was a veteran-owned business.
Attachment 13, Revised Technical Evaluation Scores.

Documents maintained by the Ohio Secretary of State show that Westar registered as a Limited
Liability Corporation in April 1998. The Articles of Organization, which were filed at that time,
show that the company was formed by Berryhill and that he represented the majority of
members. The address on East Pioneer Trail in Aurora, Ohio that is listed in the Articles of
Organization is the home address for Berryhill. Attachment 14, Ohio Secretary of State records
for Westar. Since April 1998 to present, no amendments or changes were made to the filings
with the Ohio Secretary of State relating to Westar. When we issued the subpoena to Westar, we
sent it to the resident agent listed in the Ohio state records. The letter was returned as
undeliverable and the United States Postal Service was unable to provide a forwarding address.

In their August 1, 2012, letter responding to the Contracting Officer’s show cause letter,
Calabrese and Berryhill, represented that Robert J. “Berryhill has no ownership rights in Westar
(which was previously held 100 percent) by his father, a Viet Nam [sic] era veteran.” Robert T.
Berryhill is Berryhill’s father. In response to our subpoena, Calabrese, as the President of
Westar, produced an “Assignment of Membership Interest” (Assignment) signed by Robert T.
Berryhill on July 24, 2012, stating that he is the sole Member in Westar and that he was selling
his membership interest for $10.00 to VA Butler Partners Company, LLC. The document further
states that it “was executed to memorialize a verbal agreement reached between the Parties on or
before December 1, 2011 that the Assignor would assign his Membership interest to Assignee.”
Attachment 15, Assignment of Membership Interest. Produced with the Assignment is a
document signed the same day titled “Lost Membership Unit Certificate Affidavit and Indemnity
Agreement,” in which Robert T. Berryhill states that he is the lawful owner of “One Hundred
Percent (100%) of all outstanding membership units” of Westar Development Company, LLC.
He further represents that his Units are “either uncertified or the certificate representing the Units
is lost and missing and/or has been stolen or destroyed and no longer is in his possession” and
that he “is legally entitled to the full and exclusive ownership and possession of said certificate
and the Units that [he] has not sold, assigned, transferred, hypothecated, pledged, or otherwise
disposed of in any manner.” Attachment 16, Affidavit of Robert T. Berryhill. In summary, the
only official corporate records available show that Berryhill is and always has been the majority
owner/member of Westar.

The timing of the Assignment by Robert T. Berryhill is of interest because during Berryhill’s
(Robert J. Berryhill) July 18, 2012, deposition in a civil case involving Carnegie, Berryhill was
questioned regarding his ownership of Westar. The focus of the case was Berryhill’s
embezzlement of about $300,000 from Carnegie during his employment with the company.
Although Berryhill was represented by counsel, two other attorneys, John Climaco and Scott
Simpkins, were present. The deposition transcript records show that they were “representing
principals of Westar, excluding [Robert J.] Berryhill.” Attachment 2, p. 13. When Berryhill was
asked whether he had talked to anybody other than his lawyers to prepare for the deposition, he
initially stated that he did not. However, upon further questioning, he admitted to talking with


VA Office of Inspector General                                                                            38
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
his wife. When asked specifically about any of the individuals that Climaco represented, he
testified that he spoke with Ross Farro, who he identified as a partner, and Calabrese about the
protest regarding the Butler medical facility and that he talked to them about the deposition. Id.,
pp. 22-24. During this entire line of questioning, Berryhill did not make any reference to his
father, Robert T. Berryhill. There was no indication that Climaco or Simpkins were representing
Robert T. Berryhill and he did not indicate that his father owned 100 percent of Westar. Rather,
Berryhill’s testimony at this point indicates that Ross Farro and Calabrese are
partners/owners/members of Westar.

Later in the deposition, Berryhill testified about a position he held from 1995 to 1998 with
Heritage Development Company (Heritage). Id. pp. 45-50. When asked about his departure he
noted that he had “set up a company called Westar Development Company.” Id. P. 50. When
asked later about his current ownership interest in Westar, Berryhill testified that he had no
ownership interest. He stated that he did initially but not at that time. Id. pp. 54-55. He
subsequently was asked to walk counsel through the ownership of Westar. He testified that he
set up the company after he left Heritage. However, before he could do much, Carnegie asked
him to work for them. After he started working for Carnegie he “shelved” Westar. Id. p. 58. He
then testified that he “put it in his father’s name” where it was “maintained until prior to an
award with a VA Butler project that the partners – VA Butler Partners acquired the interest of
Westar Development Company.” Id. p. 58. Berryhill further testified that he signed the interest
over in an operating agreement around October 1998 and testified that the agreement assigning
his interest to his father existed. Id. p 59.

There are no records corroborating Berryhill’s testimony that he assigned the interest in the
company over to his father in an operating agreement that still existed. This document was
requested in the OIG subpoena to Westar and was not produced by Berryhill or Calabrese. Less
than a week after the deposition, Robert T. Berryhill signed the above referenced Assignment
and an Affidavit stating that he did not have any records showing his interest in Westar.
Furthermore, if an amended operating agreement was created, it was never filed with the Ohio
Secretary of State. The only documents relating to the ownership of Westar from its creation to
the present identify Berryhill as the majority member.

Even assuming, for the purpose of discussion only, that Berryhill did, in fact, assign his interest
in Westar to his father, his deposition testimony and the statements in the Assignment show that
the Robert T. Berryhill verbally assigned his interest to VA Butler Partners on or before
December 1, 2011, which is more than a month before the proposal was submitted on January
12, 2012. Berryhill testified during his deposition that the ownership changed when they “started
going after the project in Butler” in December 2011. Assuming these statements to be true,
Westar was not a veteran-owned business when the proposal was submitted in January 2012.

Although ownership is required to qualify as an eligible VOSB, the law also requires that the
veteran be at least 51 percent involved in the day-to-day operations of the business. There is no
evidence that Robert T. Berryhill was managing Westar at any point in time, especially when the
proposal for the Butler HCC was submitted.




VA Office of Inspector General                                                                            39
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix A
Other facts that raise questions regarding the credibility of statements regarding the ownership of
Westar at the time of award include:

    	 Although both Robert J. and Robert T. Berryhill state that the assignment of Robert T.
       Berryhill’s interest in Westar occurred in December 2011, it is not clear to whom or to
       what entity the interest was assigned at that time. The July 24, 2012, Assignment
       assigned the interest to VA Butler Partners Company. However, public records and
       documents provided in response to the OIG subpoenas show that VA Butler Partners did
       not exist at that point in time. Documents produced in response to the OIG subpoena
       show that VA Butler Partners Company was created May 1, 2012. Attachment, 17, May
       1, 2012 Delaware Secretary of State.           The January 12, 2012, proposal identifies
       Calabrese as the President of Westar and Robert J. Berryhill as Vice-President. There is
       no mention of Robert T. Berryhill in the proposal.
    	 Documents obtained from Carnegie show that after Berryhill was fired for embezzling
       funds, he started a website for Westar on which he listed as Westar projects that were
       developed by Carnegie. In June 2012, Carnegie filed for a TRO and Preliminary
       Injunction. It is clear from the pleading that the TRO is directed at Berryhill. Attachment
       18, June 2012, Motion for TRO. The pleading alleges that Berryhill “represents Carnegie
       projects as projects that he developed personally or through his development company,
       Westar Development Company, LLC.” In his opposition to the TRO, Berryhill does not
       deny that Westar is his company and he does not assert that his father was the sole-owner
       or that his father had assigned interest in the company to VA Butler Partners. However,
       he does state that “Westar’s website makes clear that the experience of its principals –
       Robert Berryhill and Dana Hansen – in describing its involvement in past projects
       represents the ‘principals’ effort as a developer or in leading development teams.”
       Documents attached to the pleadings show that the website identifies Berryhill, not
       Robert T. Berryhill, as the principal. This submission, dated June 6, 2012, is inconsistent
       with Berryhill’s July 18, 2012, testimony that he had no ownership interest in Westar.
       Attachment 19, Berryhill’s Response to the TRO and attachments.
    	 Records in the System for Award Management, (SAM), show that Westar registered
       January 7, 2010, shortly after Berryhill was fired from Carnegie. The business is
       currently identified as a Veteran-Owned Business and Small Business. Berryhill and
       Calabrese are listed as the contact points. Also, the physical address and mailing address
       are listed as 114 Barrington Town Center STE 135, Aurora, Ohio. This address is a
       mailbox center; no business is conducted at this site. In addition, Berryhill, not Robert T.
       Berryhill is the purchaser of the mail service. Attachment 20, SAM documents.




VA Office of Inspector General                                                                            40
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care Center

                                                                                                                 Appendix B
                 Ownership Structure of Westar and VA Butler Partners Company, LLC

Westar Development Company, LLC                                           VA Butler Partners Company, LLC




VA Office of Inspector General                                                                           41
          Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
          Center
                                                                                                    Appendix C


                                           Management Comments
Department of
Veterans Affairs
                                                                            Memorandum
  Date:   March 7, 2014

          Principal Executive Director, Office of Acquisition, Logistics, and Construction (003)
 From:

          Department of Veterans Affairs Office of Inspector General (OIG) Draft Report: “Review of the Lease
  Subj:   Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care Center,” (VAIQ
          No. 7423388)

          Director, Healthcare Resources Division, Office of Contract Review (55)

   To:
          1. The Office of Acquisition, Logistics, and Construction (OALC) has reviewed the subject report and
          generally concurs with OIG that OALC has the opportunity to make improvements to its Prospectus-level
          Leasing program policies and procedures. Such improvements will help to ensure that a situation like
          that affecting the Butler Health Care Center (HCC) lease procurement will not happen again.

          2. Please note that VA has re-opened the procurement to all offerors in the competitive range. Because
          it is not a “new” procurement, certain information cannot be revealed without compromising the integrity of
          the procurement.

          3. Subsequent to the August 9, 2013, termination of the lease contract with Westar Development
          Company, LLC (Westar), for the design, construction and operation of the Butler HCC, VA re-opened the
          lease procurement to all offerors in the competitive range. As this procurement is currently active, and
          the subject report reveals procurement-sensitive information, OALC respectfully requests that certain
          information contained within the report be redacted in order to protect the integrity of the procurement.
          OALC requests redaction of the following information: names of offerors; weights assigned to factors and
          sub-factors; number of points received for various evaluation factors; and Westar’s cost and pricing
          information to the extent that the scope of the pricing information exceeds that shown in the Form SF-2
          lease document (Attachment 1). If this information were made public, the lease procurement would likely
          need to be canceled and resolicited, creating a project delay of 12-24 months.

          3. To protect the integrity of the procurement, OALC suggests OIG only share the number of sites,
          ranking of sites, and Westar’s pricing as shown in the attached Form SF-2.

          4. OALC also provides the following technical comments.

              a. Results and Conclusions I, pages 5-8: OALC acknowledges that the decision-making process to
              switch from a two-step to one-step procurement could have been




          VA Office of Inspector General                                                                            42
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                            Appendix C

Page 43.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

    documented more fully for this project and agrees with OIG’s recommendations regarding the same.
    OALC will implement a new standard operating procedure (SOP) regarding the market survey
    process and the contracting officer’s (CO) determination as to procurement method. The SOP will
    include the addition of independent evaluators in the market survey process, including the OALC
    project manager and other OALC technical experts, which should counteract any bias (unintentional
    or otherwise) in the market survey process.

    b. The decision process for moving from a two-step procurement to a one-step procurement was not
    intentionally biased. The Deshon Woods site as offered in the two-step process was not a suitable
    site for VA to expend time and resources to secure for the Butler HCC project, even though it was
    identified by the evaluators as a desirable site. In the two-step process, VA typically looks for a site
    that is immediately ready for development and can transfer from the site owner to VA’s successful
    offeror with a minimal amount of remediation to undertake or encumbrances to overcome. Because
    the second-ranked site scored so much lower than Deshon Woods and because of the perceived
    difficulty in obtaining an assignable option on the Deshon Woods site, OALC decided not to pursue it
    as a pre-selected site and instead switched to the one-step process, where the burden to produce an
    immediately developable site is shifted to the offerors. As previously noted, this decision could have
    been better documented.

    b. Results and Conclusions I, page 6, paragraphs 3-4: In the future, if OALC encounters a situation
    involving a bidding procurement vehicle in a future project, OALC will carefully evaluate this option.
    At the time, OALC did not believe obtaining interest in the property was a viable option since we had
    never attempted that before.

    c. Results and Conclusions I, page 7, paragraph 3: OALC acknowledges that, due to the fact that
    sites are further evaluated and scored after they receive a “pass/fail” grade as part of the site
    selection process, it should not have allowed the statement to be made to offerors that all sites were
    on equal footing. At the time of the pre-bid conference, VA had no knowledge as to which developer
    would offer which site, and the comments made were intended to express that offerors had an equal
    opportunity to pursue any one or more of the acceptable sites. Unfortunately, this statement was
    presented in a way that could reasonably be construed to address the site




VA Office of Inspector General                                                                            43
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                               Appendix C

Page 3.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

    evaluation rather than availability. OALC will implement a new SOP that addresses how site
    selection and evaluation are to be described in communications with offerors to prevent this issue
    from occurring in the future.

    While the one-step lease process provides for a pass/fail evaluation of sites, providing a numerical
    scoring of the “Quality of Site Characteristics” does not provide an unfair advantage to a particular
    site but simply allows amenities, accessibility, etc. to be further evaluation during competition.
    “Quality of Site Development” is not something that can be evaluated at the time a site is given a
    pass/fail as this information is only submitted with the initial offer.

    The developer’s ability to secure and offer a site that may meet the initial pass/fail minimum criteria
    for VA’s purposes does not guarantee that developer the lease award. If other developers had
    scored better in other technical categories that were valued as being higher in relative importance to
    VA (for instance, Architectural Concept and Building Design, which are worth more points than
    Quality of Site), any of those developers could have established a high enough technical score to
    have a reasonable chance at the award.

    d. In line with the previous request redaction, OALC requests that OIG replace the third paragraph on
    page 7 of the subject report regarding the technical evaluation scores related to sites offered in the
    Butler HCC procurement with the following:

          “…Although VA informed the potential bidders that the “sites have all been accepted and they are
          all on a level playing field as far as the solicitation is concerned,” a review of the technical
          evaluation scoring sheets showed that it included a section titled “Quality of Site.” This section
          was divided into two sub-factors related to the site. The first sub-factor was “Quality of Site
          Characteristics,” which asked evaluators to score the offered sites based on proximity to
          amenities, “developability,” accessibility, and other characteristics inherent to a site that cannot be
          readily changed by the offeror. The second sub-factor, “Quality of Site Development,” asked
          evaluators to score the offered sites based on how the developers have designed them, including
          positioning of the facility, landscaping, parking layout and flow, and any “amenities” that
          developers may provide, such as walking paths or aesthetic improvements. Westar received the
          highest score for the combined sub-factors in Quality of Site. The lowest score was approximately
          one-third of Westar’s score, and the developer with the second highest total score was
          approximately two-thirds of Westar’s score for Quality of Site. As part of its site selection
          process, VA had already evaluated the sites and determined that all five sites satisfied all of VA’s
          minimum requirements and received a passing grade. However, because some sites are
          inherently better for the location of a VA facility, technical evaluators are able to




VA Office of Inspector General                                                                                44
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                               Appendix C

Page 4.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

          award points to the most desirable sites per the sub-factors described above. Therefore, VA
          should not have stated in the pre-bid conference that all five sites were on equal footing. Rather,
          VA should have stated that all offerors had an equal opportunity to pursue all or any of the sites
          that VA identified as meeting its minimum requirements.

    e. Results and Conclusions II, page 9, paragraph 2, second sentence: OALC requests that OIG
    correct the contract number for the National Broker Services Contract against which Public
    Properties’ task order was issued. The proper contract number is V101-183P-101-01-03, awarded in
    2005. However, OALC notes that the substance of the two contracts is essentially the same.

    f. Results and Conclusions II, pages 9-10: While Public Properties did assemble documents and
    information for the CO’s review, it remained the CO’s responsibility to review and approve the
    information presented by the broker and verify that information presented was correct and complete.

    In leasing projects, OALC utilizes its indefinite delivery/indefinite quantity contract (IDIQ) real estate
    brokers to assist in project management functions, which includes the collection and assembly of
    information, including past performance verification materials, for the CO’s review. By September
    2014, OALC will implement a new SOP for its real estate broker Task Order (TO) issuance that will
    require all leasing TOs to include a list of definitive activities that the brokers must complete and
    deliverables that they must provide. These changes will be implemented more fully when OALC
    solicits a new IDIQ real estate broker contract in 2015. For the Butler HCC project, OALC issued a
    new TO to a different broker firm to handle the re-procurement with a list of items that the firm must
    complete at each stage of the procurement (attached).

    g. Results and Conclusions II, page 10, first paragraph: By September 2014, OALC will implement a
    new SOP that requires the CO to conduct a responsibility determination independently.

    h. Results and Conclusions III, pages 11-12: OALC believes that due diligence was conducted to
    ensure the award of an operating lease. Just prior to the Butler HCC lease award, VA commissioned
    and obtained an fair market value appraisal that valued the site and proposed improvements at $90
    million, which compared this appraised value to the total net present value (NPV) of the lease,
    meaning VA was paying less than 90 percent of the fair market value of the asset over the life of the
    lease. OALC’s NPV and scoring calculations are provided in Attachment 2, but OALC requests that
    these documents not be released publically.




VA Office of Inspector General                                                                                   45
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                           Appendix C

Page 5.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

    i. Results and Conclusions IV, pages 13-14: In hindsight, the information now available about
    Westar and its false and misleading representations would have likely led to a different outcome of
    the protest. The CO’s decision to dismiss the protest was made in conjunction with and support from
    OGC. The letter dismissing the protest detailed each of the assertions made in the protest and
    provided logical explanations and support for VA’s position, including citations of relevant case law
    and regulations. Refresher training will be provided to the CO on the protest filing procedures and
    process in accordance with FAR 33.

    j. Results and Conclusions V, pages 13-19: VA had little to none of this information at its disposal
    during the Butler HCC lease procurement process and in fact, was not entitled to receive such
    information. As corporate documents are not part of the public record, VA must rely on the
    information presented by offerors as part of their proposals. As recommended, OALC will make
    future transactions checks into public databases.

    k. Results and Conclusions V, page 19: OALC believes it conducted sufficient inquiry into the
    novation of the Butler HCC lease. OALC’s actions in that regard were conducted in accordance with
    FAR Subpart 42.1204. In the future, OALC will ensure that the contract file documents what steps
    were taken.

    l. Results and Conclusions VIII, page 24: OALC agrees with OIG’s assessment of the necessity of
    offerors submitting evidence of formal teaming arrangements. By September 2014, OALC will
    implement an SOP requiring that evidence, in the form of executed contracts, be submitted by the
    offeror for its design and construction teams for every Prospectus-level leasing project.

    n. OALC requests that Recommendation 1 be re-worded as follows to be more consistent with
    OALC’s lease procurement business practices and methodology:

          “For future VA leases, properly document the analysis and determinations of the Contracting
          Officer pertaining to selection of a two-step versus one-step lease procurement process.”

4. OALC generally concurs with OIG’s recommendations and provides the following comments:

    a. RECOMMENDATION 1 (revised): For future VA leases, properly document the analysis and
    determinations of the Contracting Officer pertaining to selection of a two-step versus one-step lease
    procurement process.




VA Office of Inspector General                                                                             46
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                              Appendix C

Page 6.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

    OALC Response: OALC concurs that objective criteria should be established to determine which
    process should be executed and that the CO’s determination should be properly documented. By
    September 2014, OALC will implement an SOP pertaining to this policy on all Prospectus-level lease
    projects going forward.

    b. RECOMMENDATION 2: Determine the need and the value of a real estate broker for lease
    acquisition and, if a need exists, define specific deliverables and/or tasks a real estate broker is
    responsible to provide.

    OALC Response: The IDIQ real estate brokers provide a level of expert knowledge on private sector
    real estate that is instrumental to VA’s Prospectus-level Leasing program. However, OALC
    acknowledges that the IDIQ National Broker Services Contract does not adequately outline the
    services and deliverables required of its real estate brokers in the lease procurement process. OALC
    is currently in the solicitation development phase for its next IDIQ real estate broker services contract
    and will provide additional detail and definitive lists of services and deliverables required of brokers at
    each lease procurement milestone. Changes will be incorporated into the new IDIQ broker lease
    contracts by October 2015. By September 2014, OALC will implement a new SOP for its real estate
    broker TO issuance that will require all leasing TOs to include a list of definitive activities that the
    brokers must complete and deliverables that they must provide.

    For the Butler HCC project, OALC issued a new TO to a different broker firm for the re-procurement
    with a list of items that the firm must complete at each stage of the procurement (Attachment 3).

    c. RECOMMENDATION 3: Ensure the CO takes an active role in decisions and does not abdicate
    responsibility to project manager or broker.

    OALC Response: OALC recently organizationally restructured which has already allowed for a
    clearer division of labor and decision-making authority between COs and project managers. The COs
    are now managed by supervisory contracting officers to ensure continuity among department-wide
    procurement actions. Supervisory contracting and program management staff will work together to
    issue SOPs as necessary to “tighten” and further refine processes and procedures for Prospectus-
    level VA leases.

    d. RECOMMENDATION 4: Determine ownership of each LLC involved for future projects, including
    the SPE LLC if used by the developer.




VA Office of Inspector General                                                                               47
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix C

Page 7.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)


    OALC Response: OALC has begun requesting information on the ownership of LLCs in relation to
    offering entities as part of the novation process. OALC will formally modify its solicitation
    requirements to request documentation regarding ownership from offering entities. These changes
    will be incorporated into the new Solicitation for Offers documents, as part of the Lease-Based
    Outpatient Clinic Design Guide (LBOPCDG) by August 2014.

    e. RECOMMENDATION 5: Ensure that the CO verifies that a vendor is in the CVE database when
    claiming a Veteran-owned business status.

    OALC Response: Since the Butler HCC project, OALC has implemented new vetting procedures to
    include a peer review process, a pre-award checklist, and vendors’ status verification in the CVE
    database; all of which must be completed and signed before award is considered.

    f. RECOMMENDATION 6: Develop procedures or criteria that ensure financial analysis, such as
    NPV, is accurate and reliable.

    OALC Response: OALC has already issued guidance to project managers and its IDIQ real estate
    brokers as to the proper procedures for NPV and financial analysis.

    g. RECOMMENDATION 7: Establish requirements that Past Performance Survey Forms be verified.
    Searches should be conducted online in FPDS for Government-wide contracts. Searches should be
    conducted online in the Electronic Contract Management System (eCMS) for VA contracts. Contact
    should be made with the project owner to discuss vendor’s role as disclosed on the Past Performance
    Survey Forms. Focus should be on the entity, not only the individuals.

    OALC Response: Since the Butler HCC project and in addition to the restructuring described above,
    OALC has implemented new vetting procedures to include a peer review process, a pre-award
    checklist, verification of references and past performance, and appropriate online database searches;
    all of which must be completed and signed before award is even considered. By September 2014,
    OALC will implement an SOP that requires FPDS and other relevant databases to be searched to
    provide past performance verification. Additionally, the SOP will require that past performance of the
    offeror’s architect and construction contractors be verified.




VA Office of Inspector General                                                                            48
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix C

Page 8.

Subject: OIG Draft Report: “Review of the Lease Awarded to Westar Development Company, LLC for
the Butler, Pennsylvania Health Care Center,” (VAIQ No. 7423388)

    g. RECOMMENDATION 8: Require vendors to submit documentation, such as teaming
    arrangements, that key team members such as architects, engineers, and GCs are committed and
    able to do the project.

    OALC Response: OALC has already implemented an SOP requiring that evidence, in the form of
    executed contracts, be submitted by the offeror for its design and construction teams for every
    Prospectus-level Leasing project. OALC will formally implement this requirement in the update of the
    LBOPCDG by August 2014.

5. Should you have questions regarding this submission, please contact Ms. Annette Powe at (202) 632-
5454 or via email at annette.powe@va.gov.




VA Office of Inspector General                                                                            49
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix D

                OIG Response to Management Comments
On March 7, 2014, the Department provided a response from the Principal Executive
Director, Office of Acquisition, Logistics, and Construction (OALC). OALC’s response
was provided in two parts. The first part dealt with technical comments where OALC did
agree with some of our findings and conclusions. The second part was OALC’s response
to each of our recommendations. While OALC generally concurred with all eight of our
recommendations, OALC did not fully concur with all of our conclusions and took issue
with some of our findings. Our responses to the pertinent factual and technical issues
raised by OALC are as follows.

I.      VA’s Change to a One-Step Process Created an Advantage for Westar.
OALC does not concur that there was a bias or preference for the Deshon Woods site as
concluded in our report. OALC stated that the reason for switching to a one-step
approach was that the Deshon Woods site was not a suitable site for VA to consider in a
two-step process; therefore, VA switched to a one-step approach. This statement is
inconsistent with the facts and confirms our conclusion that VA was biased towards the
Deshon Woods site by stating that VA could not keep the Deshon Woods site for
consideration under the two-step process even though there were other viable parcels that
were available. The VA statement, “because the second-ranked site scored so much
lower than Deshon Woods and the perceived difficulty in obtaining an assignable option
on the Deshon Woods site, OALC decided not to pursue it as a pre-selected site and
instead switched to the one-step process,” does not make sense and supports our finding
that when Westar gained control of the Deshon Woods property, Westar gained an
advantage. The fact is that other parcels met VA’s criteria under the two-step process so
there was no need to default to the one-step process except for the fact there was a strong
preference for the Deshon Woods site. OALC’s response ignores documentation stating
that there was pressure to keep the Deshon Woods site in consideration for the Butler
HCC. OALC’s response also ignores the fact that the Deshon Woods site did not meet
the minimum requirement of 15 developable acres and should have received a failing
grade under the one-step process as other sites did. OALC did acknowledge that the
difficulties in obtaining an assignable purchase contract for the Deshon Woods site were
“perceived” and was based on the fact that they believed they could not obtain an
assignable purchase contract by placing an offer or bid with Butler Township. OALC
states that they will carefully evaluate this option if a similar situation arises in the future.
The evidence demonstrates there was a strong preference for the Deshon Woods site and
Westar became the beneficiary of this preference when Westar gained sole control of the
site. OALC requested that we modify our finding to remove our conclusion that having a
Quality of Site factor on the technical evaluation gave Westar an advantage. OALC
acknowledges that they should not have stated that all sites were on equal footing at the
pre-bid conference, but defend the Quality of Site as a factor to be evaluated. We believe


VA Office of Inspector General                                                                            50
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix D
our finding as written is accurate because the Quality of Site factor did give Westar an
additional advantage because the evidence was clear that there was a preference for the
Deshon Woods. The rating under the original two-step process simply could not be set-
aside and ignored and documentation shows that senior VA leadership preferred that site.
VA should have taken steps to mitigate or eliminate the preference for the Deshon Woods
site when it switched to a one-step process. In reality, the Deshon Woods site did not
even meet VA requirements and should have been eliminated from consideration.

II.    VA Diverted Key Decision and/or Analysis Responsibilities to the Real Estate
Broker. OALC stated in its response that “it remained the CO’s responsibility to review
and approve the information presented by the broker and verify that information
presented was correct and complete.” Although OALC did not refute our conclusion
that the CO did, in fact, divert key responsibilities to the broker such as verifying veteran
ownership status, financial capabilities, and past experience, its response implies that the
CO in this case met his burden, when the evidence overwhelmingly shows otherwise.
However, OALC does state in its response that they will implement new procedures
regarding issuing task orders to brokers by September 2014. OALC also stated that they
recently restructured so that COs are managed by supervisory contracting officers and
will establish new procedures to tighten their procedures regarding leases.

III. The Butler HCC Lease was More Costly than VA Building and Owning the
Butler HCC. OALC asserts that leasing was less costly than building and owning the
Butler HCC. OALC determined that the NPV for the lease payments was only 49.64
percent ($47.2 million) of the FMV. The FMV value was determined by OALC by using
estimated appraisal of the building which was determined to be $90 million when
completed. Our review of OALC’s NPV calculation determined that it is in error. The
correct NPV of the capital portion of the lease with Westar for the Butler HCC is
approximately $76.6 million. OMB guidance also states that agencies should use the
estimated construction cost for an asset that does not exist at the time of the award of the
lease. Our review estimated construction costs of the Butler HCC to be approximately
$76.8 million which is almost the same as our calculated NPV; therefore, the NPV is not
less than 90 percent of the estimated construction costs. As noted in the report, our
analysis of OALC’s calculation shows that OALC shows that the NPV calculation was
duplicated, thus resulting in an artificially lower NPV.

IV. VA Wrongly Dismissed the Protest of Westar’s Award. OALC does not
concur that the CO wrongly dismissed the protest. OALC states the CO made a logical
and supported decision based on the information he had at the time and it is only
information that became known after the fact that suggests the protest should have been
upheld. Our conclusion that the CO wrongly dismissed the protest was based on
information the CO had available to him, a fact that OALC’s response does not address.
The CO had first-hand knowledge of the FBI investigation. The FBI agent conducting


VA Office of Inspector General                                                                            51
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix D
the criminal investigation discussed the investigation with the CO. The CO also
incorrectly concluded that Westar was not part of any civil litigation that involved
Berryhill, yet the CO was provided court records during the protest that showed that
Westar was a named defendant in the civil litigation. The court records also showed that
Westar was taking credit for another developer’s real estate projects, yet the CO did
nothing at that time to verify Westar’s alleged past experience. The CO had access to
public records that showed that Berryhill was not just a principal, but the majority owner
of Westar. The court records provided to the CO contain serious ethical and potentially
criminal violations of Berryhill and Westar. Even though no indictments or convictions
had been made at that time, the FAR does not require an indictment or conviction to
make a responsibility determination, yet the CO incorrectly concluded that since there
was no indictment or conviction of Berryhill, that the FAR prevented him from taking
action.

V.     Michael Forlani’s Companies Were Involved in the Butler HCC Proposal
Submitted by Westar. OALC states that they simply relied on the information provided
by Westar regarding the corporate structure of Westar and its affiliated entities.
However, Michael Forlani’s companies were clearly identified in Westar’s initial
expression of interest and Zenith held the purchase agreement for the Deshon Woods site.
In early 2012 at the time of Westar’s proposal, Zenith and other related Michael Forlani
companies were suspended from Government contracts. While we agree that VA should
be able to rely on information provided by offerors, the Government has a responsibility
to perform due diligence by taking additional steps to investigate when irregularities or
red flags are present. This is even more important when the offeror is a vendor who is an
unknown developer for a project of this magnitude. Westar made clear disclosures that
tied them into Michael Forlani, yet VA did little to ensure Westar was a valid,
experienced developer as claimed in its proposal. OALC also states that the novation of
the Butler HCC lease from Westar to VA Butler Partners was done in accordance with
FAR 42.1204. FAR 42.1204 provides examples of information that should be provided
to the CO regarding the transfer such as minutes of owner meetings, articles of
incorporation, and financial information. However, neither during our review nor in
response to our draft report, OALC did not provide any documentation or other evidence
to support its claim.

VI. VA Failed to Verify Westar’s Veteran-Owned Small Business Status. OALC
did not make any technical comments or take issue with our finding.

VII. VA Took No Action to Verify Past Performance and Experience. OALC did
not make any technical comments or take issue with our finding.




VA Office of Inspector General                                                                            52
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center
                                                                                          Appendix D
VIII. VA Took No Action to Verify Teaming Agreements of Westar. OALC
concurred that it needs to require evidence of teaming arrangements and plans to
implement new procedures by September 2014 that will require such evidence. OALC
did not make any technical comments or take issue with our finding that it did not verify
the teaming arrangements of Westar.

Recommendations

Recommendation 1. We recommended that VA establish criteria to switch from a two-
step to a one-step procurement. OALC requested a revision to this recommendation that
the CO should simply document their “analysis and determinations” for switching to a
one-step procurement for future leases. However, this does not ensure that the reasons
for switching to a one-step procurement are valid. We stand by our recommendation that
objective criteria or guidelines should be established.

Recommendations 2 through 5. OALC concurred and provided an acceptable
implementation plan for each recommendation.

Recommendation 6. OALC stated that they have guidance in place to ensure accurate
and reliable financial analysis including calculation of NPV. However, after reviewing
OALC’s NPV calculations we provided additional information to OALC questioning the
reliability of their NPV calculations and have not received any response.

Recommendations 7 and 8.           OALC concurred and provided an acceptable
implementation plan for each recommendation.




VA Office of Inspector General                                                                            53
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

                                                                                          Appendix E

                OIG Contact and Staff Acknowledgements

OIG Contact                             Maureen Regan
Acknowledgments                         Darryl Joe
                                        Mark Myers
                                        Ralph Taylor




VA Office of Inspector General                                                                            54
Review of the Lease Awarded to Westar Development Company, LLC for the Butler, Pennsylvania Health Care
Center

                                                                                           Appendix F

                                    Report Distribution

VA Distribution

Office of the Secretary
Veterans Health Administration
Veterans Benefits Administration
National Cemetery Administration
Assistant Secretaries
Office of General Counsel


Non-VA Distribution

House Committee on Veterans’ Affairs 

House Committee on Appropriations, Subcommittee on Military Construction, 

   Veterans Affairs, and Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Committee on Appropriations, Subcommittee on Military Construction,
   Veterans Affairs, and Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget


This report is available on our Web site at www.va.gov/oig




VA Office of Inspector General                                                                            55
